<html>
<title> - UNMANNED AIRCRAFT SYSTEMS: EMERGING USES IN A CHANGING NATIONAL AIRSPACE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    UNMANNED AIRCRAFT SYSTEMS: EMERGING USES IN A CHANGING NATIONAL 
                                AIRSPACE

=======================================================================

                                (115-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-672 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a> 



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  
                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, Nevada
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES
                                Panel 1

Juan J. Alonso, Ph.D., Professor of Aeronautics and Astronautics:

    Testimony....................................................     5
    Prepared statement...........................................    61
William O. ``Billy'' Ball, Executive Vice President and Chief 
  Transmission Officer, Southern Company:

    Testimony....................................................     5
    Prepared statement...........................................    67
William Goodwin, General Counsel, AirMap:

    Testimony....................................................     5
    Prepared statement...........................................    72
    Responses to questions for the record from Hon. Daniel 
      Lipinski of Illinois.......................................    86
Brian Wynne, President and Chief Executive Officer, Association 
  for Unmanned Vehicle Systems International:

    Testimony....................................................     5
    Prepared statement...........................................    88
    Responses to questions for the record from the following 
      Representatives:

        Hon. Jason Lewis of Minnesota............................    94
        Hon. Peter A. DeFazio of Oregon..........................    97

                                Panel 2

Daniel K. Elwell, Deputy Administrator, Federal Aviation 
  Administration, accompanied by Earl Lawrence, Director, 
  Unmanned Aircraft Systems Integration Office, Federal Aviation 
  Administration:

    Testimony....................................................    41
    Prepared statement...........................................    99
    Responses to questions for the record from the following 
      Representatives:

        Hon. Paul Mitchell of Michigan...........................   109
        Hon. Jason Lewis of Minnesota............................   110
        Hon. Peter A. DeFazio of Oregon..........................   112
        Hon. Daniel Lipinski of Illinois.........................   113

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Rick Larsen of Washington...................................    56

                       SUBMISSIONS FOR THE RECORD

Written statement of Air Line Pilots Association, International, 
  submitted by Hon. Frank A. LoBiondo of New Jersey..............   115

                        ADDITIONS TO THE RECORD

Letter of November 29, 2017, from William Wallace, Policy 
  Analyst, Consumers Union, to Hon. Frank A. LoBiondo, Chairman, 
  and Hon. Rick Larsen, Ranking Member, Subcommittee on Aviation.   123
Letter of November 29, 2017, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to Hon. Frank A. 
  LoBiondo, Chairman, and Hon. Rick Larsen, Ranking Member, 
  Subcommittee on Aviation.......................................   125
Written statement of Mark Baker, President and CEO, Aircraft 
  Owners and Pilots Association..................................   130
Written statement of Denis J. Mulligan, General Manager, Golden 
  Gate Bridge, Highway and Transportation District...............   136
Written statement of the National Association of Mutual Insurance 
  Companies......................................................   139
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
    UNMANNED AIRCRAFT SYSTEMS: EMERGING USES IN A CHANGING NATIONAL 
                                AIRSPACE

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. Thank you all for being here.
    Before we begin I would like to ask unanimous consent that 
members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    Mr. DeFazio. Who are we talking about?
    Mr. LoBiondo. We are talking about John Garamendi.
    Mr. DeFazio. Oh, oh, all right. I thought it was Rodney, 
OK.
    Mr. LoBiondo. No, Rodney is on the committee.
    [Laughter.]
    Mr. LoBiondo. I know sometimes it doesn't seem that way. We 
don't need to take a vote on Rodney, OK.
    OK, so ordered.
    Today the Aviation Subcommittee is holding its first 
hearing in the 115th Congress solely dedicated to the topic of 
unmanned aircraft systems, UAS. This hearing will consider 
technological, legal, and policy issues related to UAS. For new 
members of the committee, it will provide an overview of this 
very important topic. For returning members, this hearing will 
be an update on these issues.
    The UAS, or drones, are a game-changing technology. While 
drones have been in existence for decades, they are now 
creating new industries and transforming others, such as 
agriculture.
    The sheer volume of UAS now operating in the National 
Airspace System--about 2 million have been sold in the United 
States to date--and their unique features are causing 
policymakers and operators to rethink all aspects of airspace 
use.
    Until recently we thought of aircraft as mainly flying 
miles above us carrying people and cargo between airports with 
runways. UAS, on the other hand, can take off and land 
literally anywhere. They fly a few hundred feet above the 
ground and easily operate around buildings, factories, utility 
lines, and farm fields.
    The possibilities are exciting: our power companies can 
evaluate damage quickly after a storm, while keeping people out 
of harm's way. Farmers can more efficiently assess their crops. 
All kinds of equipment and buildings can be inspected faster 
and safer than ever before. And drones are changing the way 
first responders conduct research operations and how they 
monitor disaster and activities.
    In other countries, companies are beginning to use drones 
to deliver goods either directly or in combination with 
delivery vans. For example, Mercedes-Benz is using drones in 
Switzerland to deliver items such as ground coffee and cell 
phones in Switzerland on a trial basis.
    These examples make clear how important it is to maintain 
American leadership in aviation. We cannot rest on our laurels; 
the benefits of technological advancement and the costs of 
complacency are too great. As such, we must continue to 
diligently move forward with UAS integration.
    But, like with anything else, there are risks of which we 
must be mindful, as we learned earlier this year. In September 
over New York, a U.S. Army helicopter collided with an 
illegally operated drone causing hundreds of thousands of 
dollars of damage to that aircraft. In Canada, not long after, 
a drone struck an airliner as it prepared to land. We were 
lucky. No one was hurt or killed in those incidents. But we 
cannot count on luck to keep us safe the next time around.
    Yesterday the FAA made public the results of research on 
collisions between UAS and manned aircraft. So far, the 
research shows that UAS can cause more severe damage to an 
airplane than a comparably sized bird. That is concerning. We 
will monitor the future of this research closely as they 
investigate the risks of ingestion of UAS into jet engines.
    These incidents, the numerous sightings of drones, and the 
research reveal that a lot of work remains to be done to 
achieve safe and successful integration of UAS.
    The witnesses on our panels today represent those who are 
pushing the boundaries of aviation technology and innovation. 
Only hard work and close collaboration between the Government, 
industry, aviation, labor, and Congress will allow the safe 
integration of UAS into the National Airspace System.
    I note that some of that hard work and collaborative effort 
is taking place at the FAA Technical Center in my district. The 
technical center plays an important part in the partnership 
between Government and industry.
    I look forward to hearing from our panel today about how 
Congress can enable the continued integration of UAS while 
meeting the safety challenges as they arise.
    Before I recognize Ranking Member Larsen for his remarks, I 
ask unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing for the 
record, and unanimous consent that the record remain open for 
15 days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing. And without objection, so ordered.
    And I also ask unanimous consent that a written statement 
prepared by the Air Line Pilots Association, International, be 
entered into the record.
    So, without objection, so ordered.

    [The written statement of Air Line Pilots Association, 
International, is on pages 115-122.]

    Mr. LoBiondo. And now I would like to yield to Mr. Larsen.
    Rick, it is all yours.
    Mr. Larsen. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing on unmanned aircraft systems 
integration and their emerging uses.
    This subcommittee held a hearing earlier this year, where 
we discussed the FAA's readiness for new airspace users and 
technologies and the promise those technologies hold for our 
aviation system and our economy. Chairman LoBiondo and I have 
ensured UAS has been a focus of this subcommittee's oversight 
work in recent years, and our work will not slow down any time 
soon, as the UAS proliferate into U.S. airspace.
    Mr. Chairman, as I was late getting to the hearing, I am 
not going to read my entire statement, and I am just going to 
apologize for being late, ask unanimous consent my entire 
statement be entered into the record, and beg for your 
forgiveness.
    Mr. LoBiondo. There might be an objection to that.
    [Laughter.]
    Mr. LoBiondo. No, without objection, so ordered.

    [The written statement of Hon. Rick Larsen of Washington is on 
pages 56-60.]

    Mr. Larsen. Thank you.
    Mr. LoBiondo. Now I would like to recognize the chairman of 
the full committee, Mr. Shuster.
    Mr. Shuster. Thank you, Chairman LoBiondo, and thank you 
and Ranking Member Larsen for holding this hearing today.
    The United States is a world leader in aviation. We are 
also the world leader in innovation, and one of the sectors 
that I want to see thrive is the use of unmanned aerial 
systems. UAS are the latest intersection of aviation and 
innovation and I am excited to see where this industry goes 
from here.
    UAS have emerged as a strong growth sector in the aviation 
industry and are providing good-paying jobs here in the United 
States. As their numbers grow, more and more promising 
applications for UAS are being realized and planned. UAS have a 
variety of uses, ranging from assisting farmers surveying crops 
and croplands, to visual inspection of aircraft, railroads, 
pipelines, and bridges.
    During the historic hurricane season we had this year, UAS 
played an important role in relief and the recovery efforts. 
They were used as airborne cell phone towers to ensure the 
continued phone service and Wi-Fi internet access after these 
natural disasters occurred. Without this technology, many 
survivors of the hurricanes would have been cut off from their 
families. UAS were used to survey damage from the storms, 
allowing for faster recovery efforts.
    They are now being used for routine inspection of 
infrastructure, a function that cannot necessarily be matched 
by manned aircraft and often dangerous for human beings.
    We are seeing industry and Government work closely together 
toward the common goal of UAS integration and keeping the 
United States ahead of the rest of the world in the development 
and integration of this new aviation technology. And that is 
very promising when you see collaboration occur between the 
private sector and Government. I believe this will move us 
forward faster and safer, rather than seeing these technologies 
being developed overseas.
    So I look forward to today's hearing, and from the 
witnesses we have here today on the current state of UAS in our 
national airspace, and the emerging uses of those being 
developed, and what we in Congress can do to address those 
policy issues related to the use and integration of UAS.
    So, with that, I thank Chairman LoBiondo, and I yield back.
    Mr. LoBiondo. Now I would like to recognize our ranking 
member, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for this 
hearing. This is critical.
    You know, the commercial application of drones has 
incredible promise of benefits across a multitude of 
disciplines and applications, if it is well regulated. Now, 
what I mean by well regulated is that it is safe, but secondly, 
also, that we are not overly and--obsessively over a long 
period of time prescriptive to the point where we lose the 
lead--in fact, we already are losing the lead in this industry. 
So, you know, that is a cautionary tale that has to be weighed 
very carefully. Yes, absolutely safe.
    The biggest problem so far has been with idiots who have 
toy drones, like the one in New York that are being operated 
illegally. And, for the life of me, why we allow any toy drone 
to be sold without geofencing that isn't easily hackable in 
this country is extraordinary to me. I guess it is the pressure 
of the toy industry or something.
    So, you know, we have to get this straight. I asked quite 
some time ago for the FAA to--I said, ``What happens when a 
drone hits a plane, or we ingest one into an engine?'' Hmm, 
good question.
    Well, they have been grinding away at this very, very 
slowly. But yesterday we got the work product of the first part 
of this study. And it turns out that they can be worse than 
birds, a small one. In fact, they found a failure of horizontal 
stabilizers in an impact with a little crappy quadcopter or 
something like that, because they are a dense mass, versus a 
bird, which kind of--when it hits.
    So, this--you know, this is an accident waiting to happen. 
We are going to lose an aircraft. Whether it is going to be a 
smaller aircraft or a larger aircraft, we have to be sure that 
those who are operating these things illegally are dealt with. 
And there is technology out there to detect these things, 
detect where the operators are. You know, we need to pursue 
that. The FAA is working very slowly on that issue, too.
    We need to be able to ground these things. We are not 
worried about their rights, as people who are operating 
something illegally. We have had forest firefighting in the 
West suspended because of these same kinds of people. We need 
to find them, prosecute them, and, after we put a few of them 
in prison for a while, then that will go away.
    The commercial application should not be held back because 
we got these irresponsible people out there. The commercial 
needs to be well regulated, as I said earlier.
    Finally, my--and to the FAA--and hopefully they can address 
this--you know, my critical concern, beyond that--well, that is 
pretty bad, level 4 damage, which is the worst for horizontal 
stabilizers--but an engine. We don't know. And why can't we do 
the engine? Engines are really expensive. Well, how about we 
get an old surplus engine? Well, the manufacturers don't want 
to donate one, because they will say, ``Well, it was a GE 
engine that failed, that ingested a quadcopter, but maybe a 
Rolls-Royce wouldn't fail.'' I mean all the turbines are quite 
similar.
    Maybe we can go out and get an old Ilyushin engine that 
nobody--I mean it is--the point is it is a turbofan. I mean I 
think they are all going to pretty much fail the same way, you 
know, and that--they are putting that off for another 2 years 
because of all these concerns. We need to know what is going to 
happen when one of these things gets sucked into a turbofan. 
And we don't. But we already know that they can cause, 
potentially, catastrophic damage to airframes.
    So, you know, we have got to move ahead. And this committee 
should be--you know, I appreciate the fact we put in the--one 
of the extensions, a $20,000 fine. But you know, we haven't put 
in place the technology to find these people as they are 
operating them, track them down, and actually prosecute some of 
them.
    And I think we got to go beyond a $20,000 fine. This is 
very, very serious and life-threatening, potentially.
    So, with that, I yield back the balance of my time, and 
look forward to hearing from the experts here.
    Mr. LoBiondo. Thank you, Mr. DeFazio, and we thank our 
witnesses for being here today.
    On our first panel we have Dr. Juan Alonso, professor of 
Aeronautics and Astronautics; Mr. William ``Billy'' Ball, 
executive vice president and chief transmission officer of 
Southern Company; Mr. William Goodwin, general counsel for 
AirMap; and Brian Wynne, president and chief executive officer 
of the Association for Unmanned Vehicle Systems International.
    I would like to remind all of our witnesses to please limit 
their opening remarks to no more than 5 minutes. We will enter 
your remarks into the record if they go beyond that. We will 
now hear from our first panel.
    Dr. Alonso, you are recognized.

 TESTIMONY OF JUAN J. ALONSO, PH.D., PROFESSOR OF AERONAUTICS 
  AND ASTRONAUTICS; WILLIAM O. ``BILLY'' BALL, EXECUTIVE VICE 
  PRESIDENT AND CHIEF TRANSMISSION OFFICER, SOUTHERN COMPANY; 
  WILLIAM GOODWIN, GENERAL COUNSEL, AIRMAP; AND BRIAN WYNNE, 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, ASSOCIATION FOR UNMANNED 
                 VEHICLE SYSTEMS INTERNATIONAL

    Dr. Alonso. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee----
    Mr. LoBiondo. Can you pull your mic a little closer, 
please?
    Dr. Alonso. Surely. First of all, thank you for the 
invitation to appear before you and discuss my thoughts, 
opinions, and ideas to ensure that the United States remains 
the worldwide leader in unmanned aircraft systems R&D, 
operations, and integration.
    Even though I am a professor in the aeronautics and 
astronautics department at Stanford University and a current 
member of the FAA Drone Advisory Committee, I am actually 
appearing before you in a personal capacity, and speaking only 
for myself.
    There are many technical obstacles that prevent more 
widespread development and integration of UAS in the United 
States. But I will not focus on those technical challenges 
today. In fact, I would like to talk about three areas of the 
regulatory environment that can further enhance capabilities 
and attempt to solve the policy technology dilemmas that this 
field is currently facing.
    First, during these early days of the development of UAS 
capabilities--and we are in the early days--we will need more 
flight testing experiences, not fewer. We must try our ideas, 
fail, try again, succeed, because this is the iterative nature 
of the technology development process. The FAA UAS test sites, 
the Pathfinder programs, and the recently announced UAS 
Integration Pilot Program are all steps in the right direction 
that must be enhanced and significantly enlarged.
    Second, it is critical that all these tests result in data 
of sufficient quality in the appropriate amount so they can be 
used to inform the regulations and requirements that are to 
come. It is critical that this data be made openly available to 
the community for better insights and understanding.
    And third, we must set a regulatory environment that 
provides a reasonable expectation of periodic and timely 
updates to the levels of service available to UAS operators for 
those who can demonstrate compliance with stricter requirements 
to ensure safe operations.
    The United States has been at the forefront of R&D of the 
very capabilities that are enabling such a bright future for 
UAS, but the rest of the world is not sitting on the sidelines. 
Multiple countries have already recognized the potential 
civilian and military applications of drone technologies, and 
the situation truly begs the following questions.
    First, what must the U.S. do to retain leadership in the 
field that we had originally developed?
    Secondly, how do we make sure that the situation in the 
United States encourages both U.S. and foreign companies to 
test and develop here, and not abroad?
    How do we set up the proper regulatory environments, so 
that companies can plan ahead for both testing, development, 
and deployment of their UAS systems?
    And last, but not least, and above all, how do we ensure 
that the jobs that are created by this new field actually stay 
here in the U.S., and not go abroad?
    On these three areas I would like to begin the discussion 
by simply offering the following thoughts. Let me start with 
the topic of regulation.
    I think we need to ensure that we embark on a yearly cycle 
of updates to the existing rules. Part 107 is a wonderful 
starting point, and it provides a certain level of service with 
a minimum level of requirements to guarantee safety. But we 
need to do operations over people, beyond visual line of sight, 
at night, in proximity, or close proximity to buildings and 
infrastructure. And all of these are logical regulatory steps 
that need to be tackled. And, to its credit, the FAA has begun 
to go down this path.
    We need to understand what are the minimum requirements 
that enable these new levels of service.
    We need more testing, not less. This testing is needed to 
collect the data to inform the regulatory process. Because of 
the fundamental importance of safety, without the data the 
regulatory process is doomed to unnecessarily burdened future 
drone operators.
    UAS test programs should be significantly enhanced. As we 
establish new UAS flight test programs, we must require that 
the operators share all the data about all the flights, and we 
must commit to ensuring that the data, appropriately 
identified, are open to the U.S. community at large, because 
you must remember that the value is not in the data itself, but 
rather in the interpretation of the patterns and the value of 
that data that can be enhanced by participation of others.
    The only way to do this is to use a probabilistic risk-
based analysis approach that uses data to understand safety.
    I will finish my comments by saying that although I am 
talking about mostly small UAS in my testimony today, I would 
like to note that similar requirements for regulatory framework 
and data collection are important for larger vehicles. In the 
the country where I am from, we are developing electric VTOL 
[vertical takeoff and landing] aircraft that could 
revolutionize personal transportation in urban areas, and they 
can benefit from similar initiatives.
    Thank you for your attention.
    Mr. LoBiondo. Thank you, Doctor.
    Mr. Ball, you are recognized.
    Mr. Ball. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee, thank you for inviting me to 
testify today. My name is Billy Ball, and I am the executive 
vice president and chief transmission officer at the Southern 
Company. Southern provides electricity and natural gas to 9 
million customers through our 11 utility subsidiaries. We 
operate nearly 200,000 miles of transmission and distribution 
lines, and more than 80,000 miles of natural gas pipeline.
    Southern Company believes in leveraging innovation to keep 
energy safe, reliable, secure, and affordable. We were among 
the earliest energy industry adopters of unmanned aircraft 
systems, also known as drones.
    Now, for many years--as long as I can remember--we have 
used helicopters and fixed-wing aircraft for the regular 
inspection of our assets. Drones are a critical part of our 
future strategy for these inspections. Today, however, manned 
aircraft often remain more effective because of regulatory 
constraints on drone usage.
    Inspections with manned aircraft can be challenging, due to 
low-altitude flight near towers and wires. Sadly, I have 
experienced this firsthand when we lost a seasoned pilot and an 
inspector in a helicopter crash. Being able to displace the use 
of manned aircraft with drones to inspect our facilities will 
reduce safety risks to our employees.
    Now, I know this committee is particularly interested in 
disaster response and recovery. We work alongside first 
responders to restore service quickly and as safely as 
possible. Now, though still a relatively new technology, drones 
already have become an important part of disaster recovery. 
Human-based flights have to wait until the weather is 
acceptable to fly. But we can get drones up quicker, and begin 
the assessment sooner. A good damage assessment is the 
foundation to an effective recovery.
    So, in the aftermath of Hurricane Harvey, earlier this 
year, Southern Company, our company, was able to provide mutual 
assistance to CenterPoint Energy in the Houston area by 
providing six UAS teams. We have never done this before. They 
were able to make multiple flights in the areas no longer 
accessible because of all the flooding. With fewer regulatory 
restrictions, we believe additional flights would have been 
possible.
    After that, we utilized 16 drone teams in our own response 
to Hurricane Irma, which caused widespread outages for us in 
the State of Georgia. From our learnings in Texas, we 
precoordinated with the Georgia Emergency Management Agency, 
which enabled us to have improved access to make more flights. 
The use of drones really did improve our damage assessment.
    Lessons learned during both of these recovery efforts are 
now being shared across the utility industry, and is being used 
to improve our efforts, going forward. This spirit of 
collaboration within the electric power industry sets us apart 
from many other businesses.
    So, with that in mind, as Congress and the FAA continue to 
work on these issues, we ask that you would involve electric 
companies when you have pilot projects, task forces, advisory 
committees, and the like.
    Without further loosening in the regulatory space, drones 
will not see their full potential. Imagine inspecting 
transmission lines by the miles, instead of only as far as you 
can see, which is what we are limited to today. The technology 
exists. The improvements in safety and efficiency are 
overwhelming.
    Other places in the world are already doing it. We want to 
work with FAA to get projects like this green-lighted, get them 
moving on.
    In closing, I urge you to continue to pursue policy that 
allows for the safe integration of UAS into the national 
airspace. Of particular importance we call on FAA to finish the 
guidance in rulemakings called for in the 2016 FAA bill, and 
work with end users like our company and other utilities to use 
part 107 waivers to advance drone technology.
    Thank you again for the opportunity for me to be here, and 
thank you for your service to our country.
    Mr. LoBiondo. Thank you, Mr. Ball.
    Mr. Goodwin, you are recognized.
    Mr. Goodwin. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, and members of the subcommittee. It is a pleasure to 
speak with you today. My name is Bill Goodwin. I am the general 
counsel of AirMap, the world's leading airspace management 
platform for drones, and we are currently deploying unmanned 
traffic management, or UTM solutions, that currently help 
millions of drones fly safely.
    However, to realize the full economic benefit and 
efficiencies that drones can provide, we have to continue to 
challenge our own assumptions about airspace and airspace 
management. We have seen enormous leadership in that regard in 
recent months within the administration, with the FAA, and DOT, 
including the presenters that we will hear on the next panel, 
Dan Elwell and Earl Lawrence.
    Internationally, however, there are countries competing 
with the United States, as we have heard, to integrate drones 
into their airspace more quickly, and other countries' openness 
to experimentation has now accelerated into regulatory action 
and standard-setting that threatens to leave American 
businesses behind. We really have no choice but to work harder 
and faster to safely integrate drones into the U.S. airspace.
    In my testimony today I wanted to provide a few examples of 
how the U.S. airspace is evolving to accommodate drones, some 
of AirMap's experiences in other countries that are 
accelerating drone integration today, and suggest some 
recommendations for U.S. policy to build on the recent progress 
that we have seen here.
    So, in the U.S., just within the last month, the FAA 
certified AirMap as one of two original providers of the low-
altitude authorization and notification capability, otherwise 
known as LAANC, which enables operators to get instant 
authorization to fly in restricted airspace. This took a 90-day 
process with an uncertain outcome, often leading to a 
rejection, and turned it into instant access for safe 
commercial operations.
    We perceive LAANC as a building block to a full UTM 
network, and we know that the FAA intends to roll out LAANC 
across the national airspace in 2018.
    Also in the U.S., as we have heard from other members on 
the panel already, AirMap technology has assisted in the 
response to Hurricanes Harvey and Irma, just this fall. In the 
aftermath of each hurricane, AirMap supported vital hurricane 
response efforts by providing local emergency operation centers 
with a dashboard that allowed incident commanders to see 
flights and missions that were being planned and operated by 
operators performing search and rescue missions, and then 
communicate with them.
    Another example of some domestic innovation that we have 
seen is our partnership with the State of Kansas, which is a 
leader in aerospace innovation. We have worked closely with the 
Kansas Department of Transportation to deploy and develop UTM 
technology across the State--again, with the goal of speeding 
the integration of drones safely, and accelerating productive 
commercial uses of drones.
    But perhaps the most exciting development that we have seen 
here is the UAS Integration Pilot Program announced by 
President Trump and implemented by the FAA on November 2nd, 
which we expect to open the flood gates to expanded drone 
operations. By leveraging the unique insights of State, local, 
and Tribal governments, the UAS Integration Pilot Program will 
create numerous laboratories of innovation and drive commercial 
drone activity here.
    Now, notwithstanding these innovations that I have 
highlighted, there are other countries, as I noted, that are 
working hard to integrate drones at a faster rate. And in some 
cases they are succeeding.
    So today AirMap is working with other international 
partners to deliver UTM solutions next year in 2018 that we 
fear may take the United States until 2021 or later to achieve 
without congressional action.
    So I will just highlight a few of those in the time that I 
have remaining.
    In a joint venture with Rakuten, Japan's largest e-commerce 
company, AirMap is providing airspace management capabilities 
today to enable expanded drone operations in both suburban and 
exurban environments.
    Another noteworthy demonstration occurred in September of 
2017, when we participated in Switzerland in a demonstration of 
U-space, which is the European equivalent of UTM. This 
particular demonstration is worth calling out because multiple 
missions were occurring simultaneously over Lake Geneva in some 
of the most sensitive airspace in Switzerland, and the result 
of the demonstration and the deployment of the technology there 
is persistent approved beyond line-of-sight commercial 
operations that we heard a reference to earlier today.
    So, given our experiences here and overseas, there are 
three things that we think Congress can do to accelerate the 
safe integration of drones into the airspace in the U.S.
    First, Congress should expedite and prioritize the 
establishment of an operational UTM system by 2020.
    Second, Congress should apply support and resources to the 
FAA's drone pilot program, and direct the FAA to exercise its 
authority to waive regulations that currently stand in the way 
of expanded operations.
    And third, Congress should ensure that a remote 
identification system based on licensed spectrum is established 
to enable nationwide expanded drone operations.
    Thank you again for convening this hearing to discuss the 
opportunities for drones here and abroad, and I would like to 
finish my remarks by thanking Chairman LoBiondo, in particular, 
for his commitment to the FAA and its employees. We know that 
your steady hand has helped guide the agency and, in 
particular, the FAA Tech Center. And we wish you the best of 
luck in your next chapter. Thank you.
    Mr. LoBiondo. Thank you, Mr. Goodwin.
    Mr. Wynne, you are recognized.
    Mr. Wynne. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee, thank you very much for the 
opportunity to address this hearing this morning, speaking on 
behalf of the Association for Unmanned Vehicle Systems 
International, the world's largest nonprofit organization 
devoted exclusively to advancing the unmanned systems and 
robotics community.
    For years AUVSI has been urging the FAA to use all 
available means to establish a regulatory framework for UAS. 
Now we have initial regulations governing civil and commercial 
UAS operations in the form of the small UAS rule, also known as 
part 107. Much has been accomplished so far because Government 
and industry have banded together to advance UAS. But I think 
my colleagues from the FAA would agree with me that there is 
still a great deal of work that needs to be done.
    The continued adoption of this technology will require an 
expanded regulatory framework that incorporates rules for, 
among other things, night-time operations--flights over people, 
for example--and we were expecting a notice of proposed 
rulemaking for flights over people a year ago. But this next 
regulatory step has been indefinitely delayed over security 
concerns.
    In trying to get this rulemaking back on track, industry 
stepped up and offered solutions for remote identification of 
UAS platforms. We expect the recommendations of the remote ID 
ARC [Aviation Rulemaking Committee] to be public soon, and 
industry looks forward to doing its part to implement a remote 
ID system that identifies any UAS flying in the airspace in 
real time.
    We hope this measure alleviates the concerns of the 
security community. To the extent more needs to be done, we 
need broader engagement from our Government partners, notably 
those responsible for national security, to understand their 
specific concerns, and work collaboratively to address them.
    Fundamental to remote identification, AUVSI has long 
supported a registration system for commercial and recreational 
UAS operators. We are glad Congress recently restored UAS 
registration for recreational operators. However, this 
piecemeal approach to solving issues regarding both commercial 
and recreational operators may slow progress and hinder efforts 
to move the industry forward.
    It may, therefore, be necessary for Congress to reevaluate 
the role of section 336, the Special Rule for Model Aircraft, 
that was part of the FAA Modernization and Reform Act of 2012 
to address security concerns and streamline the process for 
future regulations such as those governing remote 
identification standards.
    The United States benefits from the safest airspace system 
in the world. This is largely thanks to uniform Federal 
aviation safety and operational regulations. Maintaining 
consistent regulations keeps our skies safe, and helps foster 
innovation. This authority resides and must continue to reside 
with the FAA. AUVSI also recognizes the need for non-Federal 
bodies such as States, municipalities, and Tribal governments 
to play a role in developing that Federal framework.
    The White House's recent announcement of a UAS Integration 
Pilot Program is a positive step for that effort. This pilot 
program represents an opportunity for State, local, and Tribal 
governments to collaborate with the UAS industry and the FAA to 
further develop a Federal framework for integrating UAS into 
the skies above communities across the Nation.
    Of course, the UAS industry is not relying on the FAA and 
Government alone to advance this technology. Industry currently 
shoulders many of the research and development costs to spur 
innovation, find solutions, and find solutions to make UAS fly 
higher and farther, more safely and efficiently.
    Industry has partnered with Government to advance UAS 
traffic management concepts, beginning with the low-altitude 
authorization and notification capability, also known as LAANC, 
which Mr. Goodwin just referenced. Continuing collaboration 
will be necessary, as we work toward additional UAS-related 
airspace management tools, and further UAS integration efforts 
to include platforms above the small UAS threshold and for 
higher altitudes.
    Before I conclude, I want to thank Congressman LoBiondo, 
Chairman LoBiondo, who has recently announced that he would 
retire at the end of his term. The chairman was one of the 
earliest champions of unmanned aircraft systems on Capitol 
Hill, and in his district in southern New Jersey, which has 
become an important center for UAS research and development. We 
look forward to working with Chairman LoBiondo and the rest of 
this subcommittee in the coming year on a long-term FAA 
reauthorization measure that will move the UAS industry forward 
and spur economic and job growth for the Nation.
    Thank you again for the opportunity. I look forward to your 
questions.
    Mr. LoBiondo. Thank you, Mr. Wynne. Now I will turn to Mr. 
Shuster for questions.
    Mr. Shuster. Thank you, Chairman LoBiondo.
    My question deals with--Mr. Wynne, you hit right on it--the 
remote identification of UAS. It seems to me that a big part of 
this solution, the safety, security, to law enforcement is us 
being able to tell who is flying those systems in the airspace 
up there.
    And so, in your view, what are the obstacles for us to get 
to a point where we are able to know who is flying them? 
Because, again, as we see these sightings and close events and 
near events that--and actual collisions that are occurring, 
again, knowing who is up there, knowing--be able to protect 
that airspace when it comes around, especially around airports 
or high-density aviation areas, what are the obstacles? Who 
opposes moving forward with some sort of a remote 
identification?
    Mr. Wynne. I am not aware of anyone that opposes it, sir. 
And that is a great question. We--of course, to get to the Holy 
Grail of this industry's potential, which is being able to fly 
beyond visual line of sight, as the gentleman from Southern 
Company mentioned----
    [Disturbance in hearing room.]
    Mr. Wynne. So, to continue, the--we are all in favor of 
that. We knew that we would--as commercial operators, we would 
have to be identifying ourselves. I think it is extremely 
important, particularly in urban areas, that local law 
enforcement have the tools in real time, as I mentioned, to be 
able to do that.
    The good news is that, increasingly, public safety, as we 
have already mentioned, is embracing this technology, and the 
more they use it as an everyday tool, the more they will be 
able to spot an unsafe operation or something worse.
    So remote identification is key. Backing up one step from 
there was registration. So we need all aircraft registered, and 
the ability to remotely identify. That might be a layered 
system, et cetera. But we are working on it.
    Mr. Shuster. Why do you think we haven't been able to get 
to that? I guess that is going to be a question, too, that I 
ask the folks from the FAA. Why haven't we been able to get to 
that? To me it seems like it is--if people are--today we pretty 
much know who is flying around up there, we can identify who is 
flying up there. So why hasn't it been--why hasn't the 
rulemaking been put in place at this point? Because we have 
been dealing with this now for 4, 5--several years now.
    Mr. Wynne. Fair question, sir. I think it has been elevated 
in priorities. It was on the list of things that we had to get 
to. But I think, because we have had people flying in the wrong 
places, and there is a greater need for accountability, we 
pushed forward with registration and now we have the ability 
once again for everybody to be registered. We need to push 
forward with this, as well.
    If you think about most drones as flying cell phones, 
identification is not a difficult thing to get done. So I think 
we will get it done soon.
    Mr. Shuster. And do you think this is one of the one, two, 
three most important pieces of----
    Mr. Wynne. Yes, I do.
    Mr. Shuster [continuing]. The solution?
    Mr. Wynne. I absolutely do.
    Mr. Shuster. And, Dr. Alonso, maybe you could address that 
in your thoughts, studying this.
    Dr. Alonso. I think it has been well said. I think the lack 
of regulation for remote identification is just a typical case 
of the technology changing very rapidly. Are we going to do it 
through cell phone towers? Are we going to use the work of some 
startup companies that are developing ADS-B [automatic 
dependent surveillance-broadcast] capabilities? Are we going to 
go in other means of doing this?
    I think the FAA is probably trying to see what is 
developing before they issue a regulation as to what drones 
must have. But it is a technically solvable problem.
    Mr. Shuster. Well, if we continue to do that, Mr. Goodwin, 
if the FAA keeps waiting to see about technology, technology 
changes every couple of months, probably, or at least every 
year. Is that accurate, in your view?
    Mr. Goodwin. I think there is room to not let the perfect 
be the enemy of the good. I do think that, ultimately, with 
existing technology, a lot of these problems can be solved. So 
I agree with Mr. Wynne in that regard, that I don't think we 
have to wait for the perfect technological solution.
    Mr. Shuster. And, Mr. Ball, as an operator in the airspace, 
do you see the technology changing that--how many years--you 
said you were one of the earliest users of UAS. How quickly 
have you seen that technology change over the past several 
years?
    Mr. Ball. Well, you know, for us, there is certainly--the 
technology has been improving every year. And for us it is--we 
are a very compliance-minded company. So whatever the rules 
are, we just need clarity. We will gladly comply, and I think 
you are asking a great question.
    I also agree, I don't think you have to wait for the 
perfect solution to move ahead.
    Mr. Shuster. That would go towards what Dr. Alonso said 
about put a--make a rule, and then every year review it to make 
sure that the technology hasn't grown past it or--so OK.
    Mr. Ball. Yes.
    Mr. Shuster. Well, thank you all very much. I appreciate 
the testimony and yield back.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Well, thank you, Mr. Chairman. I would just 
like to follow up on that.
    Again, as I expressed at the beginning, I--you know, 
responsible commercial operation is not a major concern, we 
just have to figure out, you know, what that endeavor is. But 
can anybody on this panel--since you have some expertise--why 
should we allow toy drones to be sold that don't have geofence 
software in them that prohibits any illegal operation? Anybody 
got a clue as to why we haven't done that? Do you think maybe 
the FAA doesn't think they have the authority, or we would need 
to give them specific authority?
    I mean this is a major concern for me. Anybody got an idea? 
I mean is it technologically possible to do that to a toy 
drone, program it so it can't go into restricted airspace?
    Mr. Wynne. It is possible, sir. I think it is really more 
of a cost question than anything else. The more capable drones 
generally are geofenced.
    Mr. DeFazio. Right. So then people, for these little junky 
drones, would have to pay more for them so that they won't 
ultimately get ingested into a jet engine because they wanted 
to fly it near an airport.
    Mr. Wynne. Well, we had that debate when we were working 
with the FAA on the registration process. What level do we call 
a toy?
    Mr. DeFazio. Yes.
    Mr. Wynne. Because it literally could be a threat. And it 
is very difficult, as we saw----
    Mr. DeFazio. Well, a toy is what--you know, there is a 
difference between a commercial operator and a hobbyist. And 
then, of course, we have the model airplane people, who are--
you know, have a long tradition of operating responsibly and 
within the law. But now we are incorporating--there will be, 
what, 1 million of these things sold this Christmas or more? 
Who knows?
    And, you know, there is--all we are going to do is we are 
going to register them. That is a step forward, but what would 
it take to put, you know, remote sensing technology on those, 
so we would be able to track them?
    Mr. Wynne. Well, I--not to be too fine on it, but I think 
you mentioned the AMA, which is a great partner of AUVSI and 
the FAA in our Know Before You Fly campaign, which is our 
educational effort to try and keep people from flying where 
they shouldn't be.
    Mr. DeFazio. Right.
    Mr. Wynne. If everyone flew that was a hobbyist--was flying 
according to AMA rules----
    Mr. DeFazio. Right.
    Mr. Wynne [continuing]. They wouldn't need to geofence, 
they----
    Mr. DeFazio. Right. But when you go to 1 million people who 
just got one under the tree and go, ``Wow, look at this, I am 
going to take it out and try it,'' they don't know----
    Mr. Wynne. Yes, sir.
    Mr. DeFazio. So--but what would it take to put remote 
sensing technology on those things?
    Mr. Wynne. I would like to answer that question for the 
record, if I could, sir, because I think there is a cost 
equation that needs to get captured with that.
    Mr. DeFazio. Right. OK. And I am not quite getting what I 
want here. But--OK.
    How about the whole idea of the FAA? I mean sometimes the 
FAA gets way too prescriptive. Couldn't we just have, in terms 
of developing a system for--you know, so we can have remote 
identification for a UTM network, couldn't it be basically not 
prescriptive, but results-oriented? I mean it doesn't have to 
be--it has to be interoperable, obviously, but it doesn't have 
to be one particular prescribed technology, is that correct?
    And, I mean, we are--we have got the technology today. It 
would work today. Yes, maybe there will be something, you know, 
more compact in the future, whatever, or different--but it 
would still be the same thing. We just want to be able to see 
it and track it. Isn't that--Dr. Alonso? Yes.
    Dr. Alonso. I mean I think what you are describing are 
performance-oriented regulations----
    Mr. DeFazio. Right.
    Dr. Alonso [continuing]. Where you describe what you mean 
to achieve, but you----
    Mr. DeFazio. Right.
    Dr. Alonso [continuing]. Don't impose the means by which 
you are going to achieve them.
    Mr. DeFazio. Right.
    Dr. Alonso. So this is doable.
    On your previous question of geofencing, it is a fairly 
easy technology. In fact, many drones already have this, but 
may not be activated at a particular moment. I think you have 
to worry about some legal issues that I am not an expert in 
regarding whether you require it absolutely from every toy, and 
how you define a toy. Is it this small or that small or a 
little bit bigger?
    But it is certainly something that is going to have to be 
activated at some point, because most people don't do it out of 
malice, they simply have the lack of knowledge and they haven't 
been exposed to some of the limitations that are in the law for 
these types of vehicles.
    Mr. DeFazio. All right. Well, and--of course the geofencing 
has to be dynamic, because we are--I mean the most--you know, 
the thing that has interfered most in my part of the country is 
people flying these things into active forest fires, and we 
have to take out all of the aircraft until it goes away.
    Dr. Alonso. Absolutely.
    Mr. DeFazio. So--yes, Mr. Goodwin?
    Mr. Goodwin. To your comment about dynamic geofencing, that 
is exactly the kind of technology that AirMap is developing and 
deploying. And, in fact, that is one of the reasons we have 
partnered with the Department of the Interior, to get a more 
robust set of wildfires into our data sets so that those 
responsible manufacturers that are actually doing geofencing 
now would be able to avoid worrying about any consumer choice, 
but the drones wouldn't be able to even take off if they were 
within a certain proximity of a wildfire.
    We have taken that a step further for local first 
responders, as well. So I just want to react on that. I don't 
think it is so much a technology problem as it is some of the 
line-drawing exercises that we have to go through as to what 
the threshold is where that technology should apply.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. I very unapologetically--at every opportunity 
I can--promote and highlight the work that the FAA's premier 
technical center, which is in my district, continues to do with 
engineers and laboratories that is unmatched anywhere, and the 
partnership that they have formed with the private sector.
    So, for anyone on the panel, I believe, in many respects, 
that the technical center is somewhat underutilized, especially 
when it comes to their expertise with drones and unmanned 
aerial systems. Any ideas or suggestions on what can be done 
additionally to help validate what many of you are developing, 
you know, separately from the Federal Government?
    Mr. Wynne. I would say that many of the technologies that 
we are going to need to move on to advanced--beyond remote 
identification, which we have already discussed, and things of 
that nature, you know, the ability to sense and avoid is 
really, really critical, not just for small drones, but for 
larger drones that are going to operate in the flight levels.
    These are the kinds of technologies that start to leverage, 
I think, the expertise that exist at the technical center, 
because they are going to--we want them--when we talk about 
true integration, we want the ability to interact with manned 
aircraft, both in an airport environment, as well as up in the 
sky. So I think the ability to get to true integration is going 
to require that kind of expertise. And the FAA, in its 
rulemaking, is going to need to require on data and research 
that is actually--you know, it is validating itself. So I think 
that is an extremely important role for the tech center.
    Mr. LoBiondo. Anyone else?
    Yes, Doctor?
    Dr. Alonso. If I may, I think of where drones are going to 
have to get to in, let's say, 5 to 10 years in order to be 
pervasive. It is not a set of aircraft, but rather a network 
system. So the technologies that need to be understood in order 
to regulate them, to further their capabilities and goals, are 
really not just in the realm of aerospace engineering, but also 
information technology, computer science, perception, autonomy, 
so on and so forth.
    So, if you ask the question what would I recommend that the 
FAA Tech Center is allowed to do in order to be more responsive 
to this new development environment, I think is the question of 
trying to acquire the talent in all of these different fields 
that were not traditionally part of commercial aviation in 
order to be able to authoritatively say where we should go in 
the future.
    Mr. LoBiondo. Yes, Mr. Goodwin?
    Mr. Goodwin. And this is a theme I will probably revisit a 
number of times, but I do think that the UAS Integration Pilot 
Program reflects a unique opportunity to leverage some of the 
expertise at the tech center as part of a broader application 
to that program to test, in the real world, some of the 
developments that we are going to need to see happen over a 
longer term basis.
    So I think that we are seeing opportunities for the tech 
center's abilities to be leveraged that didn't exist before, 
because there weren't the same opportunities to implement those 
technologies in real life and test that research in real-world 
situations.
    Mr. LoBiondo. Mr. Ball, I don't know if you are familiar 
with work at the tech center. Have any ideas in this area?
    Mr. Ball. I am not specifically familiar with the tech 
center. But in general, in the utility business we are huge 
believers in piloting first. You know, we are generally a very 
conservative, risk-averse universe of companies. And so, 
working with centers like you have mentioned is kind of in our 
history.
    You know, we work strongly, as a group of utilities, with 
the Electric Power Research Institute on drone research, really 
kind of playing out use cases. So anything we could do with the 
center in helping us validate use cases, as--and some of the 
things these men have mentioned, as well would be very helpful 
to us.
    Mr. LoBiondo. OK. Rick, you are up.
    Mr. Larsen. Thank you, Mr. Chairman. I will take my 5 
minutes for my questions.
    So Dr. Alonso, could you just start off by answering this 
question? What do you think specifically legislatively that we 
would need to do versus separating that from what FAA needs to 
do, from a regulatory perspective? What would be our job, on a 
committee, for--to facilitate further integration?
    Dr. Alonso. So in my written testimony I suggested that the 
regulatory process needs to proceed in a more regular cycle. So 
we need to see updates to things like part 107 every 6 months 
to 1 year, with the expectation that certain new regulations 
are going to be in place for the developers of drone systems to 
be able to plan ahead to deploy their systems according to 
those regulations.
    So I would like to see more flights, as has been expressed 
here; more data, data informing these regulations; and these 
regulations happening in a more periodic cycle.
    Mr. Larsen. Yes, but that isn't necessarily a legislative 
action we need to take.
    Dr. Alonso. Well----
    Mr. Larsen. I mean we could direct FAA to do that. We 
direct agencies to do a lot of things, and they don't meet 
those timelines. Nothing against--that is just the history 
around here.
    Dr. Alonso. So I guess what I am implicitly suggesting is 
that, you know, a little bit more pressure may need to be 
applied to the FAA in order to try to get these regulations 
happening more frequently. Otherwise, other countries are going 
to overtake us. And they have a tremendously difficult job 
ahead of them.
    Mr. Larsen. Yes.
    Dr. Alonso. They are regulators for safety.
    Mr. Larsen. Right.
    Dr. Alonso. They don't want to be the first ones to 
actually issue a regulation that causes an accident.
    But we must begin--and I don't know if you have the 
authority to do this--with regulatory updates for the things 
that pose extremely low safety risks. You know, we have 
gentlemen here that are talking about beyond-visual-line-of-
sight operations in areas where there is no population 
whatsoever. Those things should be proceeding along almost 
immediately.
    Mr. Larsen. Yes. And I think on your second--one of your--I 
think it was your second--about data sharing. Is there 
anything--are there any obstacles to data sharing, either from 
testing and research from public to private sector, from 
private sector to public sector, from the data results?
    Dr. Alonso. Of course. You know, when we are talking about 
data, we are talking about data of all flights, but also the 
incidents and accidents that may occur during the operations of 
these UAS. So we may learn from them and avoid them proactively 
in the future. So there is a strong sensitivity to the data 
that may be provided, and something that was a near miss or a 
near accident, et cetera, et cetera.
    But the FAA has tremendous experience with the ASIAS 
[Aviation Safety Information Analysis and Sharing] system for 
commercial aviation, where this data can actually be catalogued 
and databased with proper identification so you provide 
incentives for the operators to provide this data. And the data 
that can be made available to various parties, for them to mine 
it and to understand what situations led to certain risk of 
safety that then can be proactively managed.
    Mr. Larsen. Mr. Ball, other than inspections and--you know, 
routine inspections, as well as the inspections done during--in 
light of the disasters, what other roles are you finding for 
your UAS teams?
    Mr. Ball. Well, we have got a lot of creative folks, and 
this has really been many unique opportunities, things as--we 
have hydroelectric dams we are responsible for. Drones make a 
great way to inspect the dams really efficiently and 
effectively.
    Shoreline surveys around lakes behind those dams that we 
are responsible for that we have to do, a much more efficient 
process at some of our solar energy facilities, inspecting the 
panels. It can easily be done--that has been a great process.
    Actually, in some of our coal plants we have to monitor 
the--you know, the volumetric amount of the coal there. We can 
do that with a drone, have done that.
    Wind turbine inspections, any sort of tower inspection. I 
mean today, not only do we fly, say, the transmission lines on 
a regular basis, but on a--not as frequent, but we still have 
to do it, we have to visually inspect the actual structure 
itself, and that is done with people walking on the ground. And 
we can do that, preprogram it with the drone, and it works 
very, very well.
    We have also been able to use drones, actually, inside of 
big boilers that we would normally have to let cool down, put 
in scaffolding, put people in there to inspect things. You can 
preprogram a drone to run in there. It is----
    Mr. Larsen. You are getting near my time. As a son of a man 
who spent his life climbing poles and climbing down poles, I 
appreciate what a drone in 1968 might have meant to my dad.
    Mr. Ball. Absolutely, sir. Absolutely. It is amazing.
    Mr. Larsen. All right, thanks. I would like to do some 
followup with you all, if I could, Mr. Ball, and--further. 
Thanks.
    Thank you.
    Mr. LoBiondo. Mr. Gibbs?
    Mr. Gibbs. Thank you, Mr. Chairman.
    Mr. Ball, in your testimony you talk about being able to 
displace the use of manned aircraft with drones to inspect our 
infrastructure, reduce the safety risk to our employees. I 150 
percent agree with you on that.
    And in Mr. Wynne's testimony he talks about under part 107 
there has been--FAA has granted more than 1,300 waivers to 
expand operations.
    Now, Mr. Ball, can you inspect transmission lines out of 
line of sight now, or do you get a waiver? Or what is the 
status here? I am trying to understand what is happening.
    Mr. Ball. Yes. Actually, at our company, we do not yet have 
a waiver for that. We, along with another--a bigger set of 
utilities, have made a request and we are just waiting on that. 
But that is a very exciting opportunity for us.
    Mr. Gibbs. Well, it would seem to me--and I have got--had 
transmission line coming across one of my farms, you know, in 
the easement, and I don't know how far it goes up above the 
power lines, but it ought to be a no-brainer to be able to fly 
a drone, you know, unmanned vehicle, within that--a 
commonsense, reasonable area of the easement. You know, if the 
easement is 100 feet, you know, across the surface, and however 
far up, that you ought to have some, you know--and it 
shouldn't--you know, and no planes are going to be flying 
there, anyway. So I don't understand what the issue is here.
    Mr. Ball. Well, I don't think there is a technological 
issue, or even a safety concern. It is just a process 
opportunity that we need to get ironed out with the FAA.
    Mr. Gibbs. So how long has it been that you have applied 
for the waiver, or the industry has?
    Mr. Ball. I think it has been probably about a year now.
    Mr. Gibbs. OK. So it is just bureaucratic redtape, is that 
what you are saying? I mean this should be a no-brainer, 
shouldn't it?
    Mr. Ball. I would hope----
    Mr. Gibbs. To be able to inspect transmission lines.
    Mr. Ball. Yes.
    Mr. Gibbs. Because, you know, it is obvious that I have 
seen where they have had helicopters and planes fly over my 
transmission line, and they fly low, and you know, there is 
always that danger there, because, you know, if you do it with 
a drone, it is just a lot of common sense, makes a lot of 
sense.
    Mr. Wynne, your membership includes a lot of international 
companies. What have you really learned from--and, you know, 
and other--in other countries?
    And I think I can tag that on with Mr. Goodwin has done a 
lot of drone work in multiple countries, you know, with, like, 
Switzerland and Japan. So I guess between the two, can you kind 
of maybe enlighten us a little bit what is happening in these 
other countries, and with the drone regulations, line of sight? 
I am really keen on this line-of-sight issue. So either one.
    Mr. Wynne. There are places overseas where things are--
might be a little bit more--there are things that are allowed 
that aren't--we don't regulate here, we don't have regulatory 
authority or permission to do here yet. But I think it is fair 
to say that part 107, particularly with the waiver opportunity, 
has given us, you know, the path forward to getting to 
regulations.
    The last exchange I think was really critical to 
understanding the difference between a waiver environment and a 
regulatory environment. Once we have identified how to do that 
operation over miles and miles and miles of utility line 
safely, we should regulate that, we should codify that and say, 
under these circumstances, you have the permission to do it. 
That way, all utility companies now know how to do that, or 
service providers know how to do that, rather than having to 
seek a waiver.
    Mr. Gibbs. I just--to interrupt you----
    Mr. Wynne. We don't quite have that yet, a----
    Mr. Gibbs. Mr. Ball, if we are looking to--out of line of 
sight, and transmission line inspection, and that easement, 
what would be the maximum height that you would need above a 
power line, or--you know, what----
    Mr. Ball. You know, the--actually, it would be very close. 
Certainly, probably no more than 100 or so feet above. I 
actually think the--what we were seeking before was--well, 
maybe 200 feet, no more than that, something in that range. So 
it is--and all within the right-of-way.
    Mr. Gibbs. All within the right-of-way. That is----
    Mr. Ball. Yes.
    Mr. Gibbs. So I guess Mr. Wynne and Mr. Goodwin would agree 
that that should be, you know, not really an issue.
    Mr. Goodwin. Yes, I think that there is a lot of room to 
set a threshold that is reasonably low, that allows operators 
to pursue these kinds of operations.
    Just to your previous point about our experience overseas, 
what we have really seen is that what you just described with a 
plane flying low over your property or the issue that is 
specific to an easement, ultimately that is going to invite a 
lot of challenges that have to be resolved at a local level. 
You are going to have to have some kind of comfort level with 
either the landowner or either with the relevant authorities.
    And what we have seen is some embracing in a variety of 
jurisdictions of solving those problems collaboratively, and 
getting the various levels of government in the same room. And 
I think that has given other jurisdictions an advantage for 
AirMap, where it makes more sense to partner.
    I do want to call out the pilot program, again, as a 
mechanism that I think is forcing that collaboration to happen 
here. So a great opportunity for us to reclaim the lead.
    Mr. Gibbs. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Johnson?
    Ms. Johnson of Texas. Thank you very much. And thanks to 
all of you for being here.
    As I sit here and listen, I realize how much we need to be 
looking at safety. And considering the State of which I come, 
we have lots of wide open spaces and very little regulation. 
But I really do believe that the drones are going to present a 
real challenge in safety, unless we have some way to determine 
the number that should be in certain spaces at certain times, 
and what types that are toys and the real serious delivery 
systems.
    And I realize that safety will be a prime concern. Just 
recalling the Black Hawk helicopter incident that happened, 
this is really the tip of what can happen. So I am just trying 
to determine where do we begin to look at the privacy, the 
challenges that we see emerging through this integration of the 
unmanned drones.
    What steps are we taking now to address the privacy 
concerns, as we are handling consumer data, safety, the number? 
It seems to me that we could be pretty much encumbered with a 
number of regulations that could be somewhat troubling. But how 
do we get around it?
    Anybody who would like to address it? Yes?
    Mr. Goodwin. Yes, I think your question goes to a point 
that you have heard echoed on the panel before, which is that a 
lot of these issues need data. And we haven't had access to a 
lot of data, because we haven't had the volume of operations, 
certainly not the volume of compliant operations that I think 
folks like the Southern Company could perform that would 
generate data that would help solve some of those hard 
questions around privacy, around security, which are 
legitimate.
    And so I--you will hear me say this again--I think the 
pilot program is the prime mechanism that we have domestically 
today to start generating that data. And what Congress can do 
is ensure that the FAA does have the support necessary to make 
that program a success.
    What we saw in previous examples where we adopted a waiver 
process is that a couple folks out of the gate get a waiver, 
and then the backlog becomes significant. So you have folks 
like the Southern Company waiting a year in order to get a 
waiver. So that is where I think, if we adopt a waiver-based 
approach, we are never going to generate the data that we need 
to actually come to that kind of granular level of problem-
solving that you are describing.
    So where Congress can act, I think, is to help support the 
pilot program and ensure that it has the resources necessary to 
start a lot of commercial operations in that mechanism.
    Ms. Johnson of Texas. Yes?
    Mr. Ball. Just to follow on with Mr. Goodwin, I think the 
opportunity in the utility space is to allow us to start in 
areas that aren't as urban as we were talking about before. And 
there is a lot of information to be learned there.
    So I actually think there is--and Dr. Alonso mentioned 
these types of things in his testimony--you know, there is a 
way to step into this, and--but we just need to get stepping.
    Ms. Johnson of Texas. Yes?
    Dr. Alonso. If I may, you mentioned safety, which is what 
we are most concerned with, in addition to privacy. But safety 
is really a product of the risk of something happening and the 
consequence of that thing that is bad happening.
    So I think what Mr. Ball is saying is that there are plenty 
of opportunities where the consequence is very, very low. You 
are flying over unpopulated areas. We must get going with these 
types of test programs, acquiring all the data under those very 
low safety risk situations in order to be able to say something 
meaningful about situations where the safety risk is higher, or 
the privacy issues become significant.
    Mr. Wynne. Ma'am, thank you for your question. We are 
always somewhere on a continuum of safety, privacy, security in 
this industry. And the objective is clearly to get to scale. We 
don't see the value and the benefits that we have described 
until we are at scale. And we have seen this with other 
technology. So it is a bit of an iterative process, and data is 
extremely important. It has been indicated.
    The FAA has the safety part, right? They don't have 
necessarily the privacy part. We have great collaboration with 
the FAA and other regulators around the world.
    The privacy part we worked very, very closely with many 
civil liberties organizations in an NTIA [National 
Telecommunications and Information Administration] process the 
previous President asked us to participate in. We came up with 
volunteer guidelines on how to protect people's privacy. I am 
sure everyone in the room would agree privacy is paramount to 
getting to scale. We can't be violating people's privacy and 
expect to get to scale.
    Similarly, with security, as I mentioned in my oral 
testimony, we are ready and are engaging with the national 
security agencies to talk about how to address those issues. 
And I also sit here representing the counter-UAS community, as 
well, which stands at the ready to help geofence and do things 
in an active way to keep airspace safe.
    Ms. Johnson of Texas. Thank you. My time has expired.
    Mr. LoBiondo. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Ball, I would like to start with you, if I could. I 
want to kind of piggyback onto what my colleague, Mr. Gibbs, 
was talking about in regards to line-of-sight, visual-line-of-
sight issues.
    In section 2210 of the 2016 FAA bill, to work beyond a 
visual-line-of-sight flights for activities to inspect, repair, 
construct, maintain, or protect facilities, including critical 
infrastructure--to your knowledge, has the FAA made progress to 
implement this provision, and allow owners of critical 
infrastructure, like Southern Company, to maintain that 
infrastructure?
    Mr. Ball. It is my understanding that we are still waiting 
on that guidance from the FAA on how--on basically what are the 
criteria we need to meet. And that, as I think Mr. Goodwin or 
Mr. Wynne mentioned before, that is really what we need. We are 
a very compliant type of company. We deal with compliance all 
the time. We just need some more clarity around the rules.
    Mr. Davis. So hopefully we will get that clarity with the 
second panel, with the FAA coming up.
    This is a question for any of the panelists who would like 
to answer. I introduced an amendment to the FAA bill to create 
somewhat of a micro-drone category, and I think it is--today's 
technology, we shouldn't have to have anyone climb a power pole 
again to inspect, and we shouldn't have to have any claims 
adjuster climb up on top of a roof anymore with today's 
technology that is in front of us.
    My micro-drone category would have created--would have been 
created for drones that are 4.4 pounds or less, that travel no 
more than 40 knots, and can be used with individual line of 
sight. Now, would this classification promote innovation and 
actually help the safety of companies like yours, Mr. Ball, or 
those that make up your association, Mr. Wynne?
    You know, would this new class be something that we could 
then get the FAA to then focus on those structures and critical 
infrastructure issues and waivers that we have already talked 
about?
    [No response.]
    Mr. Davis. Who wants to go?
    Mr. Wynne. It might. It is--you know, with miniaturization, 
there are going to be more and more drones that are smaller and 
smaller. And on the one hand they represent less of a threat, 
less of a security or a safety issue, I will say. You know, 
there are other things that are going on that sort of--I think 
when we started an ARC on flight over people, it was originally 
called a micro-UAS ARC with that thought.
    Where this has gone--and companies like CNN are designing 
very, very small drones that can bring you the news, but if 
they come down on somebody's head, they are going to 
literally--they will not do any damage, they are literally--
they break off, and you know, there is frangibility, and so 
forth, and they are very, very light drones--but I think, you 
know, the airspace, it is a, I think, fair debate to say that 
the airspace needs to be governed by regulation.
    There might be a threshold below which the harm is so 
minimal that it is not worth regulating. But I--again, I 
reference our discussion at the registration ARC. There were a 
lot of aviation organizations represented in that room that 
almost no size is viewed as nonthreatening, right? So I think 
it is a very--it is an ongoing debate, as to whether or not the 
weight of something or the size of something reduces its threat 
and, therefore, makes it a candidate for--to not be regulated.
    Mr. Davis. We are well aware of some of the initial 
opposition. However, I think, as we have clearly heard through 
your testimony and previous hearings here, that the FAA is just 
not doing its job to process waivers to actually allow for 
drone technology to be implemented in our airspace.
    And frankly, size of drone technology, I think, does matter 
when it comes into question, especially when it is--we are 
talking about hopefully creating a tool that is a--used in a 
toolbox, versus a--something that requires an FAA waiver.
    Would anybody else like to address the micro-drone issue?
    Mr. Ball. Well, I actually would have to agree with Mr. 
Wynne. I don't know that I know a perfect answer to it. But 
again, whatever the size of the drone, for us it is just a 
matter of knowing what the rules are, and having confidence in 
the rules. And then we will live within the rules.
    You know, for me, you are right, a small drone is a tool. 
And it can be a very handy tool. And what we have found with 
our employees is once you give them a new tool, give them the 
ability to use it within some set of parameters, their 
creativity is unbelievable. And so we would enjoy having the 
ability to use, really, drones of all sizes. I understand the 
smaller ones could be of benefit locally. We are actually very 
excited, also, on the other end. I do that--I understand that 
has bigger implications, you know, for bigger payloads, using 
them for construction, and other things.
    Mr. Davis. Well, as--my fear is that if we don't begin to 
separate out micro-drone technology, we are going to continue 
to be faced with the same problems within the regulatory 
environment that all of you mentioned in your testimony. And 
that, to me, would be a travesty.
    So thank you, I yield back.
    Mr. LoBiondo. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Mr. Wynne, you had briefly discussed remote ID in response 
to a question by Ranking Member DeFazio. I would like to go a 
little further into that.
    First, if there is any update on the progress of rulemaking 
that you might be able to give us. But I would really like you 
to tell us why remote ID is so important.
    Mr. Wynne. The update, I think, would probably be from Mr. 
Elwell, but I am given to understand that the report from the 
remote ID ARC is imminent. So we will have that, and then 
hopefully followed quickly thereafter by an NPRM [notice of 
proposed rulemaking], and then we start that process.
    I think it is extremely important, as is registration, to 
sort of build this process of visibility that we need in the 
airspace. And that--you know, that--there is a whole variety of 
ways that that can be done, ground-based, as well as platform-
based, or some combination of those two things.
    But suffice it to say that we, as an organization, are 
against anonymous flying. Today, if someone gets in an aircraft 
and takes off, generally speaking it is visible to everyone in 
the system, and it is visible because they are in a system of 
systems.
    So similar to if you are waiting on someone to arrive, and 
you look up their flight number on FlightAware, I can now see 
on my iPad an aircraft that has been called for me by air 
traffic control. I can see its tail number, et cetera, et 
cetera, thanks to ADS-B.
    This is just what we do in aviation. Aircraft need to be--
they need to be visible to one another, so that we can avoid 
conflicts. It is going to be even more important when, for 
unmanned aircraft, when we have got UTM and those unmanned 
aircraft need to give way to manned aircraft--say an EMS 
[emergency medical services] helicopter that is coming through 
an urban area, et cetera, et cetera. They need to be detecting 
one another, they need to be identifiable to one another, and 
they need to be responsive to one another.
    Mr. Lipinski. And as we have more operations of UAVs, how 
do we, you know, pay for the burden on the system?
    Mr. Wynne. I would defer to Mr. Goodwin, because I think he 
has--we have the beginnings of that, which I tagged up on in 
LAANC. His company, as well as Skyward, are the two 
organizations from the private side that are essentially 
bringing the tools to the operations community that tie into 
that system of systems that the FAA is providing, including 
basically automatic airspace authorizations, et cetera. Those 
are the building blocks for UTM.
    It remains to be seen how that burden gets shared, but I 
can promise you it will be a shared burden between industry 
bringing its tools to the table, as well as the FAA providing 
its back-end systems.
    Mr. Lipinski. So, Mr. Goodwin?
    Mr. Goodwin. Yes. Thank you, Mr. Wynne.
    As Mr. Wynne noted, we do have experience with this in the 
public-private partnership model that the FAA established with 
LAANC and used there, both with our work, also domestically 
with cities and States, and then overseas with ANSBs [Air 
Navigation Services Boards] and other entities that we are 
working with. We have seen, really, a variety of models here.
    So I think the--I am less concerned about the fact of how 
any burdens on the system are going to be paid for, and more 
that when we start to realize meaningful economic activity, you 
know, service providers or companies like the Southern Company, 
they are going to be able to rationalize any costs they have to 
bear, so long as they are adding meaningful value. And that is 
always going to be the burden on industry, to generate 
sufficient value that those costs are worth bearing.
    Mr. Lipinski. Mr. Alonso----
    Dr. Alonso. And, if I may, I don't know if you are aware, 
but the FAA Drone Advisory Committee has set up three groups to 
investigate different things. The technical working group three 
is looking at the issue of how this whole process is going to 
be funded, and their recommendations are due to the spring 2018 
meeting of the Drone Advisory Committee.
    So studies are looking at various different options, and 
trying to figure out what is a fair way of distributing that 
burden.
    Mr. Lipinski. Thank you. And I don't have much time left, 
and this is a more complicated question, but let me throw it 
out there.
    Sense-and-avoid technology, where are we at right now? Who 
wants to take a stab at that one? All right. Mr. Goodwin seems 
to want to----
    Mr. Goodwin. Well, just to offer a small comment, I think 
that sense-and-avoid technology has to be complemented for 
commercial operations at scale with a UTM system. Generally, 
the more miniaturized drones get, the more challenging it is 
going to be to have an onboard sense-and-avoid that gives you 
the complete 360-degree awareness.
    However, with a persistent, you know, wireless connection 
that is sufficiently high bandwidth, you can have a much higher 
visibility into the airspace around you. So I think we are 
going to see a blend of those technologies and with--connect to 
drones of the future.
    Mr. Lipinski. Thank you. Nice, quick answer.
    I yield back.
    Mr. LoBiondo. Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman, and thanks for this 
committee, and thanks to all the guests here. It is wonderful 
to see you all.
    Mr. Wynne, you had said earlier that you thought that the 
State and local units of government should play a role in 
developing a Federal framework. I want to focus on that a 
little bit because, as you know, I have been trying to address 
the issue of federalism versus preemption, and trying to find a 
sweet spot there.
    We have had a great experiment in this country, the concept 
of dual sovereignty, the idea that instances that affect two 
citizens of the same State would be governed by the State's 
police power, and if you have a Federal nexus or interstate 
commerce, the Federal Government would handle that. And it has 
worked quite well. It has worked quite well because we don't 
like the consolidation of power in this country. We like the 
idea of these great experiments and the several States arriving 
at good solutions.
    So, as it pertains to this emerging and wonderful new 
technology, I do want to ask you if you think that the Tribal, 
State, local governments should have no ability whatsoever to 
directly create, say, a time, manner, place, or some sort of 
restriction on low-level, small UAS, as long as it doesn't 
interfere with interstate commerce. They should still have no 
say at all?
    Mr. Wynne. No----
    Mr. Lewis. Legally?
    Mr. Wynne. No, I did not say that. And I would not say 
that. Is the mic on? OK.
    I think the question that that is begging, sir, is how. How 
would they have the ability to do that?
    Mr. LoBiondo. Excuse me, are you sure your mic is on?
    Mr. Wynne. The mic?
    Mr. LoBiondo. Are you sure your mic is on?
    Mr. Wynne. Yes, it is lit, so----
    Mr. LoBiondo. Pull it a little closer.
    Mr. Wynne. There we go, there we go. All right, I am going 
to start over again, sir.
    Mr. Lewis. You bet.
    Mr. Wynne. I did not say that. I--what--the question that 
is being begged here--and I am going to defer on the question 
of, you know, the way you contextualized it, which I think is 
very relevant, but I think it is probably a longer answer than 
you wish for--is that, at the end of the day, there is a 
workability question here, which I think the pilot project 
which we have been strongly supporting has the opportunity to 
help us solve.
    And I hasten to say that I think that, in many instances, 
with a lot of the questions that we are discussing, we will be 
in a different place 6 months from now, and on different 
complexes of issues than we are today.
    In this one in particular I have had numerous conversations 
with people who are responsible for public safety or municipal 
authorities. And the question that always comes up is how would 
I do that. How would I manage my airspace----
    Mr. Lewis. Well, OK, let me just interject, because in your 
statement you said that you thought State and local and Tribal 
governments should play a role in developing a Federal 
framework, a Federal framework, as though they would have no 
framework themselves.
    And my question is simply if somebody is buzzing past a 
school, or hovering in my backyard, looking in, you know, the 
window upstairs, I am going to call the FAA? No. I am going to 
call the zoning board, I am going to call the police 
department, I am going to call a local authority. And that is 
where the police power comes into effect, isn't it?
    Mr. Wynne. Yes, it is.
    Mr. Lewis. Mr. Goodwin, you want to comment on that?
    Mr. Goodwin. Yes, happy to comment. I think we have seen, 
both here in the U.S. and then overseas, that safe commercial 
drone operations only happen at high volumes if you get every 
level of government involved to solve some of these really 
complicated questions.
    I take the analogy of comparing, you know, the relative 
space of planes and automobiles. So in the automotive space, 
States and localities create time, manner, and place 
restrictions on cars. You have a highway speed limit that the 
State may set. You may make a street walkable, like where we 
work in Santa Monica, so no cars are allowed at all, and maybe 
trash trucks aren't allowed to come in the middle of the night. 
Those are reasonable restrictions that don't necessarily impede 
effective commercial activity, and they are implemented at the 
State and locality level.
    And all those are, of course, available in real time 
through apps like Waze, which can tell me when I am speeding at 
times.
    And so, comparing the volume of activity that that 
engenders, the FAA Air Traffic Organization provides service to 
more than 42,000 flights a day, which is a significant economic 
benefit to the country. But the Department of Transportation 
estimates that there are 1.1 billion car trips per day. So, 
comparing the relative scale, I think that we can say that that 
doesn't sound like a burdensome regulatory framework, it sounds 
like highly valuable economic activity.
    Mr. Lewis. And I would only add--and thank you, everyone on 
the panel, for your testimony today--this is a wonderful, brave 
new world. We have got to embrace this technology and this--and 
I want the best for the industry.
    My concern, in all sincerity, is if we don't find a 
satisfactory statutory scheme here, something worse will come 
down the road in a court decision, or something worse for the 
industry. So I hope we can all work together and find this 
sweet spot I have been trying to work on, so we can embrace 
this new technology and still pride ourselves and still embrace 
that wonderful idea of local control.
    I yield back.
    Mr. LoBiondo. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. And I certainly 
appreciate this very important hearing. It comes at a time when 
a lot of us are thinking about drones in connection with their 
commercial uses.
    Now, I represent a unique district, to be sure. The 
Nation's Capital, the District of Columbia. It has been 
declared a--there is a word that is used, ``no drone zone,'' so 
that if you live in the Nation's Capital--almost 700,000 people 
do--I am interested, as the Nation prepares for commercial uses 
of drone, to have things delivered by drone--by the way, this 
includes parts of--near-in parts of Maryland and Virginia--
whether you think this 15-mile ring--it is a 15-mile ring--
where drones cannot fly, if that is what they do, without FAA 
authorization, I ask you whether you think that is--obviously, 
I have to think about safety first, and that is what I am 
thinking.
    Now I am trying to think about the commercial uses of 
drones to deliver packages at Christmas, for example, whether 
you think this--something can be done to make sure that drones 
fly within this 15-mile zone, the Nation's Capital, safely for 
commercial purposes. I don't know if Mr. Alonso, Mr. Wynne, or 
any of you have any ideas on that, but I would be grateful to 
have them.
    Dr. Alonso. Well, I would say that a blanket prohibition of 
any type of drone, any size, any speed, any capabilities, 
without any particular specification of what requirements----
    Ms. Norton. It says without--and I am not going to be here 
when the FAA testifies--without specific FAA authorization. Do 
you believe what is envisioned is unique, a unique system for 
flying within this 15-mile radius?
    And by the way, this could apply to everybody else's 
residential area, too, if that was considered to be a zone 
where there may be some kind of secure facility, as well.
    Dr. Alonso. But obviously, the current regulation in this 
area is one that is coming from issues of security. So I think 
we are being absolutely safe and secure. But I think there are 
many opportunities to enable commercial drone use, even within 
the Washington, DC, area with more logical regulations as to 
what is permitted and what is not.
    Ms. Norton. Yes, please.
    Mr. Goodwin. Yes, I think part of the challenge there is to 
actually find the right way to say yes to drones. And it is not 
just a commercial operation, it is to drones operated by first 
responders or helping provide situational awareness to police. 
There is a lot of different uses of drones that could be 
constructive. They don't have to be purely commercial and save 
lives, as we have seen.
    In that context, how do you say yes to drones that you know 
are going to be compliant? And that is, I think, where the 
digital infrastructure of UTM is going to be so important. So I 
think there may be an opportunity to explore even places as 
sensitive as Washington, DC, through the pilot program by 
virtue of surfacing all the hard questions about how do you 
mitigate the security concerns, how do you have a combination 
of counter-UAS and compliant drones operating, so that you can 
discriminate between people who are flying with permission and 
flying--those who aren't. That is where I see the opportunity 
to actually stress test whether we could operate safely in, 
obviously, the most sensitive airspace in the U.S.
    Ms. Norton. I appreciate the notion of a pilot program. The 
right way to say yes may be encompassed in these words without 
specific FAA authorization. It does seem to me we ought to be 
able to get there that way.
    Is--could--coordination being done with the Department of 
Defense is their concern in this age of terrorism, that drones 
not only here, but elsewhere could be used, or is this going on 
just with the FAA, which has the major responsibility? Does any 
of you know--have an answer to that question?
    Mr. Wynne. My organization works very closely with----
    Ms. Norton. Would you speak up, please?
    Mr. Wynne. Sure. My organization works very closely with 
the Department of Defense, particularly JIDO [Joint Improvised-
Threat Defeat Organization], on how to handle the use of 
drones, particularly outside of the continental United States. 
There are things inside of the continental United States that 
make that a more challenging policy discussion. FAA, FCC 
regulations, rules that prevent the disablement of an aircraft, 
which I am in favor of, and so forth.
    So there are some subtleties here that are being looked at 
on how to implement counter-drone technology in security-type--
in a security-type context. Overseas it is a little bit easier, 
when our troops are directly threatened, or our allies are 
directly threatened. But we are, as an industry, working with 
them to develop those technology security solutions.
    Ms. Norton. Mr. Chairman, I would be interested, as well, 
in any involvement of the Department of Defense with this very 
important issue. Thank you very much, and I yield back.
    Mr. LoBiondo. Mr. Woodall?
    Mr. Woodall. Thank you, Mr. Chairman.
    Mr. Ball, I wanted to start with you. I send you a check 
once a month, and I am grateful to you for keeping the lights 
on. Thank you for that.
    I want to pick up where Mr. Davis left off. He asked you 
about a legislative change that we worked on together here. You 
have been waiting about that same period of time on your waiver 
request. Tell me what the impact is, in terms of operations, if 
we get guidance for the legislation first, or if you get 
approval on your waiver first.
    Mr. Ball. Interesting. Well, number one, thank you for 
paying your power bill. We love all our customers.
    Mr. Woodall. To be fair, I get threatening notes when I 
don't.
    Mr. Ball. OK, good, yes.
    Mr. Woodall. It is a relationship.
    Mr. Ball. I am--you may--your question--I don't know that I 
have fully grasped it, but, you know, as soon as we--I mean 
right now, if we could get a waiver, that would be great. 
Just--but I would agree with some of the things that were kind 
of said earlier. If we can move to an environment, where 
instead of seeking waivers we have a clear set of rules that we 
can work under to allow us to do beyond-visual-line-of-sight 
operation, that is a much better environment than having to ask 
for waiver by waiver by waiver.
    Mr. Woodall. And so my expectation is, when the guidance 
comes out for the section that Mr. Davis references, we will no 
longer be talking about waivers for any critical infrastructure 
provider in the country.
    Mr. Ball. That would be our hope. It's just give us the 
rules, and we will work within them.
    Mr. Woodall. We talked about revisiting rules every 6 
months. I think that was you, Dr. Alonso, who said we need to 
be in the--in a rapid regulatory framework. Talk to me a little 
bit about that. Is that because technology is moving on a 30-
day cycle, and so regulating on a 180-day cycle makes sense?
    I worry about changing the rules every 180 days for folks 
who are trying to find some certainty in this space. I know you 
are supportive of performance-based standards, as opposed to 
prescriptive standards. But talk to me about the industry 
dangers of a frequent regulatory process, instead of a certain 
regulatory process.
    Dr. Alonso. In an industry where safety is paramount, you 
have to be extremely careful. And the wheels of Government move 
slowly when it comes to regulation for a reasonable reason, I 
would say.
    But when I was talking about updates to the rules, I wasn't 
meaning changes to rules that permit the same thing with 
different requirements over time, but rather updates to the 
rule that enable certain services and keep those rules for a 
significant period of time until there is additional knowledge 
that informs us to change them.
    So what I would like to see is more rules in the next 6 
months to allow beyond visual line of sight when you are flying 
over unpopulated areas, right? Or rules for flights over people 
when you have drones that are relatively small and you are 
staying within visual line of sight, and those types of things, 
so that the periodic updates we were referring to, additional 
level of service with additional--of requirements, not to 
changing the requirements over time.
    Mr. Woodall. When we talk about the safety, those of you 
who are so intimately involved seem to talk about safety from 
the--from a drone level up. When you listen to folks here who 
may not have as much UAS experience, we talk about safety from 
the drone level down. I am less worried about it getting sucked 
into an engine; I am more worried about it falling on my head.
    Where is the regulatory holdup there, as we struggle to 
balance safety and technological advancement? If I ask the same 
question to the FAA, are they going to tell me that what slows 
the process down is the inability to deal with safety going up, 
or a worry about safety going down?
    Dr. Alonso. I think the answer depends on the category of 
drone that you are talking about. Certainly for the larger 
ones, going up is a significant and maybe a more substantial 
risk. But for the smaller ones going down is a very important 
thing that we need to worry about, not to impact the public.
    I--my take on this is that what is slowing things down is 
that we don't have enough data to know exactly where to set the 
thresholds for the requirements for either the ones going up or 
the ones going down. We are learning about it, but we need to 
accelerate that learning.
    Mr. Woodall. And so, when many of you have talked about 
folks like Mr. Ball and the work that Southern Company could do 
to generate that data--Mr. Goodwin mentioned that 
specifically--my assumption, when we talk about generating data 
is we are going to generate some failures in that space, that 
from an industry perspective the position is let's give 
Southern Company the tools to do this, let's anticipate 
failures, and we are going to learn from those failures, and we 
are just going to be comforted by knowing that failure is going 
to occur in unpopulated, rural Georgia, as opposed to over New 
York City. Is that the answer that we have seen overseas, as 
well, Mr. Goodwin?
    Mr. Goodwin. I think it is. And I think also, just to 
reiterate the point I made earlier, the closer you get to the 
ground, and more specific the concerns of the people on the 
ground, the more you need to ensure that there is a voice for 
all the relevant folks, both at the State and local level, and 
then of course, obviously, the individual citizens.
    So I think the pilot program is the first opportunity to 
generate that data, where all those voices are going to be 
heard, and I--hopefully it will generate a lot of that 
information that we haven't seen today.
    Mr. Woodall. I appreciate the nice words you all had to say 
about our chairman. My experience is sometimes folks get their 
very best work done, Mr. Chairman, after they have announced 
their retirement.
    [Laughter.]
    Mr. Woodall. These next 14 months may be the most 
productive 14 months we have seen. I think our folks are in 
good hands here today.
    Mr. LoBiondo. I will reserve comment.
    [Laughter.]
    Mr. LoBiondo. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman. Mr. Alonso, I wanted 
to ask you a question. You have talked a lot today about 
accelerating learning, more data, more testing. I think in your 
testimony you said all of this must be significantly enhanced.
    So I am just trying to get an idea from you what that 
means, exactly, in terms of where we are today, and what is 
``significant enhancement,'' in your mind?
    Dr. Alonso. Let me take a little detour. If you accept that 
drones today have 1 accident in every 1,000 flights, that means 
you must observe 1,000 flights before you see a single 
accident. Obviously, you don't want to see just one accident, 
you want to see tons of accidents, where there is no 
consequence. That means, instead of 1,000 flights, you have to 
look at tens or hundreds of thousands of flights and data 
points. This is the point I was trying to make in my testimony.
    So, when I say significantly enhance--to your question--I 
mean that we cannot have pilot programs that have four 
participants, right, doing two or three flights a month or 
something. We have to have hundreds of participants doing 
hundreds of flights a month, and accumulate that data over a 
significant period of time.
    Ms. Brownley. And is that where we are today?
    Dr. Alonso. I think we are in a very, very small scale in 
these----
    Ms. Brownley. Very small scale.
    Dr. Alonso. There are excellent flight test programs, and I 
give kudos to both Congress and to the FAA for starting them, 
but I think we need to ``significantly enhance'' them.
    Ms. Brownley. And then, to compare what we are doing today 
to where others and Japan or Switzerland, other international 
communities, where you have expressed concern that we may be 
falling behind in terms of R&D?
    Dr. Alonso. So I think they are starting, but they are not 
significantly ahead of us. There are some simpler regulatory 
environments.
    But I would like to make the analogy more to driverless 
cars. You know, when you look at the amount of testing that is 
actually being done to figure out when and how these cars 
should be allowed to go on the roads, we are talking of about 
millions of hours of driving, accumulated by a number of 
different companies. I think we need to go in autonomous drones 
in a very similar direction.
    Ms. Brownley. Thank you. And this is a question more for 
anybody, really, on the panel. And I am a little new in my 
learning around this issue. So--but there have been--you have 
previously talked about issues and our concerns around privacy, 
security, et cetera. And I think Mr. Ball or Dr. Alonso--I am 
not sure--responded by saying, well, we could start to learn 
more by simply flying in unpopulated areas.
    So I am having a hard time understanding what we learn 
flying drones in an unpopulated area, just--it seems like, 
well, there is no safety issue, necessarily. I mean you are out 
in the open space. So if you could, enlighten me.
    Mr. Ball. Well, I think what was being discussed was part 
of the learning is--to Dr. Alonso's point--is when you do have 
an accident, or when there is a failure of a piece of 
equipment, how does the equipment react to it? What do you see?
    And if you have a failure like Mr. Woodall just said, in 
the middle of a field in Georgia, that is unfortunate. We don't 
like that. But we can learn from it, and then that can be a--
you can take those learnings and then say, OK, if that had 
happened in the Washington, DC, area, you know, what would the 
impact have been?
    So it is just something as simple as that, I believe.
    Ms. Brownley. Well, it seems to me that there are so many 
different types of UAS. I mean there are--there are lots of 
manufacturers. I guess you could group them into certain 
categories. But it seems like that is an inordinate amount of 
data points that I am not sure you can, you know, draw a line 
between them.
    Dr. Alonso. Well, take for comparison the commercial 
aviation system. It has got similar diversity. And the failures 
can be equipment, although they are very, very rare. But it can 
be operations. And normally it is a combination of effects that 
lead to a particular failure.
    We have over 1 million drones, right, in the U.S. right 
now. We could expand the way in which we collect data as to 
when these things fail, or where they almost fail, in a much 
more large-scale way. I think this is the main point.
    And yes, there will be a lot of data, but it is the best 
hope we have to actually impose logical regulations.
    Ms. Brownley. So is there another example of what we would 
learn flying in unpopulated areas, Mr. Goodwin?
    Mr. Goodwin. Yes, I will offer very briefly an example that 
touches upon what Mr. Woodall said. The number of stakeholders 
that you have to be concerned about when it comes to privacy 
and security are significantly fewer in relatively low-density 
areas, so it is easier to get them into a room, it is easier to 
talk to a handful of folks and find a technology means of 
addressing their solution than it would be, say, in an urban 
environment.
    So I think that the--just from a simple crawl, walk, run 
kind of approach, a lot of those learnings are going to be 
applicable because, candidly, a lot of folks that we have 
encountered in some of the more rural environments do have a 
strong sense of private property and concerns about privacy, 
and they would be more than happy to participate in the 
benefits of technology, so long as their concerns are 
addressed.
    So it is the right population to really try to get those 
learnings on, simply because of the scale, and the scale 
relative to the scale of the commercial opportunity, which is 
significant.
    Ms. Brownley. Thank you.
    And thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Mr. Duncan?
    Mr. Duncan. Well, thank you very much, Mr. Chairman. Dr. 
Alonso, you serve on the key FAA advisory council on drones, 
and I have got an article that is a few months old that said 
that we had almost 800,000 U.S. drones registered in the first 
15 months, and that that was going to go on up to an 
estimated--an estimate by the FAA that there would be 3\1/2\ 
million by 2021. I don't know if those estimates are still 
accurate, because that is a few months old.
    But if we have 3\1/2\ million drones in 3 or 4 years, is 
there any realistic way that we can keep up with all of that, 
or that we could--it seems to me you would end up with 
millions, because this same article says we have got 320,000 
manned aircraft registered after 100 years of registration. So 
what do you think about that?
    I mean it seems to me we will end up with millions of 
unregistered drones.
    Dr. Alonso. Well, I think because the barrier to 
registration has been lowered so significantly, I think, you 
know, maybe we should require that these drones are registered 
at the point of purchase.
    But I think this tremendous growth that you are talking 
about is really happening in the very small range of the UAS. 
So I think there has been some discussion already today as to 
various means that could actually get under control, that very 
large growth and the very small range of UAS that are now going 
to be flying beyond visual line of sight and above people, and 
that are mostly operated by you, myself, and maybe our kids 
doing relatively simple things.
    Mr. Duncan. Well, just yesterday Bloomberg News reported 
and it says ``the millions of small civilian drones plying the 
Nation's skies can cause significant damage to airliners and 
business jets in a midair collision, new research commissioned 
by the U.S. Federal Aviation Administration concluded. While 
most drones weigh only a few pounds, they include motors and 
other metal equipment that could cause significant damage to 
aircraft engines, windshields, or wings,'' and so forth. What--
do you have concern about that?
    Dr. Alonso. Absolutely. But we talked about technologies 
like geofencing and others that may significantly reduce that 
risk if imposed on these small drones that you are discussing 
at the moment.
    Mr. Duncan. Right.
    Dr. Alonso. So you want to make sure that none of these 
millions of drones that are going to be in the very small scale 
are going to be in the path of an airliner. And I think we have 
the technology to do that, so----
    Mr. Duncan. Mr. Goodwin, you mentioned a key word to most 
people on this issue just a moment ago, and that is privacy. 
And I understood at another hearing that we had a few months 
ago on drones that they can make drones as small as an insect 
now, or as--you know, I don't know what that--how far that 
goes.
    But do you--are you satisfied? Do you feel comfortable that 
we are doing enough to alleviate all the privacy concerns that 
are out there? I know in Los Angeles, when the Los Angeles 
Police Department was starting to increase its use of drones, 
there was quite an outcry from private citizens. What do you 
think about that?
    Mr. Goodwin. I think particularly with the increase in 
miniaturization, we are going to only see this grow as an 
issue. That being said, I do think there is room for a lot of 
privacy issues--and we should perhaps not lump them all 
together--to be solved by existing laws that are on the books 
that might apply to other technologies, as well.
    So a lot of what we have seen in terms of, you can say, 
Google Glass or other technologies that allow you to record 
someone without necessarily them being apparent may apply some 
of the lessons learned from those technologies, may apply in 
the context of drones.
    Just separately, I would call attention to the privacy 
concerns from Government operators, which I think we have a 
very healthy mechanism in this country for elevating those kind 
of concerns when it comes to Government action, and leading to 
best practices around those operations.
    And I think that practice of finding the best practices for 
a Government operator, the way that they store the data, the 
way that it has to be accessible, there is a lot that can be 
learned from the high-skill commercial industry to solve some 
of those privacy concerns on the commercial side. That doesn't 
necessarily address some of the other types of concerns that go 
perhaps down to the recreational level, but I do think there is 
room to not let the perfect be the enemy of the good there.
    Mr. Duncan. All right. Well, thank you. Thank you very 
much, Mr. Chairman. I see my time is about up. Thank you.
    Mr. LoBiondo. Mr. Johnson?
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, and thank 
you, witnesses, for your testimony today.
    Sometimes it is hard to see the forest from the trees. And 
I will just leave that like that. I will ask you if anyone on 
the panel has an opinion about the pervasive antiregulatory 
environment that has been perpetuated over the years, and 
whether or not it has had an impact on the FAA's ability to 
promulgate rules in this UAS environment. Does anyone have an 
opinion about that?
    Mr. Wynne. My opinion, sir, is it has not. We have----
    Mr. Johnson of Georgia. There is no antiregulatory 
environment that we exist under at this time? Are you----
    Mr. Wynne. We work very----
    Mr. Johnson of Georgia. Would you agree with me on that?
    Mr. Wynne. We work very closely with the regulators. If we 
don't have regulations under which we can fly, or permission to 
fly, we don't fly. This industry doesn't scale, society doesn't 
benefit from the technology.
    Mr. Johnson of Georgia. I understand. My question goes to 
the regulatory environment that exists at this time. And I 
guess you would disagree that we have an antiregulatory 
environment, but I am sure that others agree with me that we do 
have an antiregulatory environment, generally. And my question 
is how does that, if it does, impact the promulgation of rules 
in this space.
    But let me--and you take your comments--you are well noted 
on that. What about the incessant budget cutting, including the 
FAA's budget, over the years? Has it--has that fact impacted 
the FAA's ability to promulgate rules in this UAS space? Anyone 
have an opinion on that?
    [No response.]
    Mr. Johnson of Georgia. And I guess no one does.
    Mr. Wynne. Actually, sir, I will take the opportunity to 
thank the subcommittee, because we have seen, actually, 
additional resources provided to the FAA in order to move 
forward with this regulatory environment.
    Mr. Johnson of Georgia. After the budget----
    Mr. Wynne. And I thank the subcommittee for that.
    Mr. Johnson of Georgia. After the budget has been cut, you 
have seen resources added?
    Mr. Wynne. Yes, sir, and Mr. Elwell----
    Mr. Johnson of Georgia. To try to equalize----
    Mr. Wynne [continuing]. Or Earl Lawrence could speak to 
that. I would also be happy to provide information for the 
record.
    Mr. Johnson of Georgia. OK. Well, I would love to see it, 
and I am sure the American people who are thoughtful might want 
to see whether or not the resources we are providing to our 
agencies, including the FAA, during these times of austerity 
have any impact on its ability to keep up with progress. I 
don't see any way that it cannot have an impact. That is my 
personal opinion. But I will ask Mr. Ball.
    Sir, you mentioned in your testimony that during a recent 
hurricane you were able to dispatch drones to Texas and help 
their utility with coming up with assessments as to damage. And 
you could have done more, if the regulations had allowed you to 
do so. What regulations, other than the--being able to see the 
drone in operation, what other regulations impacted your 
ability to not use drones as much as you would have wanted to 
down there?
    Mr. Ball. Yes, I think it was just as--well, one thing, it 
was as simple as--this was one of the first times that drones 
were used in a mutual assistance since. So there is some 
learning there. That is when I said when we--in the following 
month, when we did the same thing in Georgia, we had learned 
from Texas.
    But some of it was just waiting on waivers, waiting on 
permissions, and so----
    Mr. Johnson of Georgia. And these kinds of commonsense, 
practical realities are impacted by our budgeting decisions 
here in Washington, DC. I just wanted to make that point.
    And does anyone have any idea whether or not the proposed 
tax cuts that are working their way through Congress will have 
any impact on the ability of the Federal agencies to operate 
efficiently and effectively in this area?
    [No response.]
    Mr. Johnson of Georgia. I see no one is responding. I think 
that these are--when I said sometimes it is hard to see the 
forest from the trees, that is exactly what I was referring to. 
And with that, I will yield back.
    Mr. LoBiondo. Mr. Sanford?
    Mr. Sanford. Thank you, Chairman. Let me find my notes 
here.
    Back in October of 2015, this subcommittee held a similar 
hearing on the same subject. And at that time I in essence 
asked this subcommittee how do we maximize safety, while 
minimizing Government involvement? And it was interesting that 
FAA Deputy Administrator Michael Whitaker at that time 
responded that he believed the best way to go down that path 
would be an industry-based standard, so we don't have to go 
down the regulatory path. And obviously, that is not, in large 
measure, the direction we are going.
    But I will go back to the same question I asked back in 
2015 of that committee, which is--yes, I think in part to what 
my colleague from Georgia, Mr. Woodall, was getting at, which 
is, in essence, you can't have riskless innovation. You can't 
have innovation without risk.
    And so, the question I think we have to struggle with as 
policy folks is to say how do we have more in the way of 
innovation, given what we have seen happen in the wake of 
hurricanes and other natural disasters, the utility that might 
come in the wake of the way retailers operate, there are just a 
lot of big possibilities out there.
    And so I guess one of the questions--it would seem to me 
that in answering that question--I was just talking again to 
Mr. Woodall, and there is a clear bifurcation in that when you 
talk about jet engines, you are clearly talking about Federal 
standard and the importance of operations around airports, 
interstate travel. But when you operate dealing with peeping 
Toms, local safety issues, rural power lines, fundamentally you 
are really operating at what has historically been handled at a 
local or State government level.
    Is there a system by which--that you all could imagine 
operating in--particularly I would ask you, Mr. Ball--wherein 
you would have a bifurcation responsibility? If you are close 
to Hartsfield-Jackson Atlanta International Airport, you are 
going to be dealing with the FAA and all the appropriate 
Federal regulatory agencies. But if you are operating in rural 
Georgia at a low altitude, it really doesn't involve a big 
safety issue. Is there a way to cover that at a local level?
    Give me your thoughts on that again, because I think what 
we need to end up at, as a place, is a spot where we maximize 
innovation in this unfolding field, while at the same time 
managing risk. And might that not be better done if you 
bifurcated responsibilities between Federal and State or local 
duties?
    Mr. Ball. I do--I think, as Mr. Goodwin mentioned before, I 
agree with him, I do think there is an opportunity there to 
possibly do that. For a company like ours, whatever the 
structure is, we just need to know the rules. And so, in a 
multilayered regulatory environment--and we deal with that 
today in other areas--as long as we understand the rules, and 
the rules aren't so conflictive that it kind of leaves us 
wondering what we should do--that would be helpful.
    And it has been mentioned before, this pilot effort that 
is--that people actually, I think, just now are making 
applications to, could be very helpful here. And I think Dr. 
Alonso mentioned, you know, the more of these pilots, where we 
are involving municipal and county and State-level folks in 
with the national rule, so we can learn how these things could 
coexist, I think that is going to be very helpful. Because I 
will be--I am not imaginative enough to imagine all of the 
unintended consequences we might get, but I think we can work 
through them.
    Mr. Sanford. Then I ask you, Mr. Goodwin, in other words, 
historically it has not been the purview of the FAA to worry 
about peeping Toms underneath a home in Hollywood, California. 
Are we trying to jam too much, in terms of jurisdiction, in at 
the Federal level? Or, for that matter, again, covering the 
rural power line in Georgia? Is there a best practice that you 
have seen in another country?
    I would love to learn more about the mapping that has taken 
place in Kansas. Are there insights that you would offer from 
the standpoint of the Federal, State jurisdictional puzzle?
    Mr. Goodwin. Absolutely. Well, I think it is certainly the 
global trend that most national authorities have looked at this 
issue and recognized you have to get every level of government 
in the room in order to enable high-volume commercial 
operations. And so you see that in Germany, where there is a 
delegation of authority down to the State level. We see the 
U.K. just announced a city-based drone innovation program. And 
you are seeing that in a variety of other----
    Mr. Sanford. Well, and how have they done that in such a 
way so that, for Mr. Ball's organization, he is not having to 
contact five different, you know, governmental jurisdictions to 
go ahead and check the power line, or check the house that was 
damaged after a hurricane?
    Mr. Goodwin. Absolutely. So I think there is a number of 
different nascent approaches, and I won't go through them all, 
given the time constraints here. But I would call attention 
again to the formation of the pilot program requires people to 
solve for exactly that problem.
    And by not isolating it to just be localities by 
themselves, but also the coordinating role that States can 
play, I am encouraged--so long as we have congressional action 
to help support that pilot program and direct the FAA in that 
regard--that we are going to see those best practices emerge 
because of the volume of activity to solve those problems that 
we see accrue there.
    Mr. Sanford. I would ask other questions, but I see I am 
out of time. Thank you, Mr. Chairman.
    Mr. LoBiondo. Yes.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair. There has been a lot 
of very interesting talk.
    Mr. Goodwin, your company is in southern California, and 
leading the way in aerospace management of drones. In my 
district, San Gabriel Valley includes the foothills where we 
had multiple forest fires, due to the drought, threaten 
hundreds of homes and evacuated thousands of people. At one 
point the fire department was forced to stop the aerial 
firefighting due to the presence of private drones.
    What can be done, or what is being done to stop the use of 
drones? Is it the responsibility of local cities, the--to 
institute local ordinances? And how would they get the 
information to the general public?
    By the same token, are there any instructions in the sale 
of the drones to either register them or where they could be 
flown?
    Mr. Goodwin. Yes, so happy to answer the different parts of 
the question there.
    I think focusing on the information-sharing side, that is 
where companies like AirMap play a role. There is a growing and 
thriving USS/UTM ecosystem of companies that are trying to 
aggregate that kind of data, and then service it for users.
    Ideally, in a perfect world, what you have heard is that it 
is not a discretionary act, but responsible manufacturers set 
geofences on their drones. Once you have a dynamic, persistent 
connection, you have a connected drone, then the fact of a 
wildfire is--I don't want to say it is an insignificant 
challenge, but it is a challenge that technology can solve for.
    We have computer-aided dispatch in our platform that people 
can automate their drones to not take off or to route around, 
and that includes things like local fires, not even just 
wildfires, which may be significantly larger. And I referenced 
it earlier, that was our partnership with the Department of the 
Interior, which became public and a number of other companies 
participated in to service that data.
    So I think there is a lot that technology can do there, 
independent of any particular local action. In terms of what is 
the best practice, again I think there is an opportunity for--
through the pilot program to really test out the right 
regulatory models, just like we will see companies testing out 
the right business models. And hopefully, from that, we will 
see a lot more--the data that gets directly on point.
    I think----
    Mrs. Napolitano. Does the FAA prohibit cities from 
instituting their own ordinances?
    Mr. Goodwin. So I will direct that question to the FAA on 
the next panel. I think they have issued guidance, and that is 
obviously a balancing line between where the FAA's authority 
ends and where a city's authority begins.
    Mrs. Napolitano. Well, when you have the information, as 
Dr. Alonso was stating, who generates and who keeps and 
disseminates the information on the drones? And where is this 
stored? Who can have access to it?
    Dr. Alonso. You mean the information about ownership and 
location, or you mean information about flights----
    Mrs. Napolitano. All of it, all of it, because it is a new 
technology that we--although it wasn't really new. Twenty-some-
odd years ago I spoke to a woman who was having drones for the 
movie industry.
    Dr. Alonso. Well, I think, in general, what you need is a 
credible, honest, and neutral broker of that information, so 
you know that it is going to be provided accurately, and that 
it is going to be represented accurately or portrayed 
accurately, as well, I think.
    Mrs. Napolitano. But so far who handles it?
    Dr. Alonso. Well, I imagine it would be the FAA in this 
particular case, right?
    Mrs. Napolitano. But the Government moves very slow.
    Dr. Alonso. Yes, although they----
    Mrs. Napolitano. This was pointed out.
    Dr. Alonso. They have been successfully shown that this can 
be done for commercial aviation. I think, with the aid of new 
information technologies with companies like AirMap and others, 
you may streamline the processes that led to the existing 
databases to make them much larger, and much more available. 
So----
    Mrs. Napolitano. And does the industry talk to academia and 
to the FAA? Do they work in concert?
    Dr. Alonso. Yes, I think so. I think all these pilot 
programs are essentially set up, such that these types of 
communications do take place.
    Mrs. Napolitano. Well, in a visit to the Port of Los 
Angeles recently with Chairman Graves, the port police 
highlighted the concern they have on authorized users 
interested in the landmark status of port complex flying drones 
unsafely through ships, cranes, and other equipment.
    And I would like to know if you know what is being done to 
address unauthorized drones on those landmarks and the 
airports.
    Dr. Alonso. I don't think I can answer that.
    Mrs. Napolitano. Mr. Goodwin?
    Mr. Goodwin. Specifically in reference to the port, who we 
have chatted with--and I think there is a lot of really 
fascinating, forward-thinking folks there--I think this is a 
great opportunity to show a combined picture of the airspace, 
because on the flip side of the coin is the commercial 
operations that a number of folks within port facilities want 
to do to use drones.
    But to do that you have to have a combined picture of the 
airspace. The good actors and the bad actors are just perhaps 
reckless folks----
    Mrs. Napolitano. Or unknowingly.
    Mr. Goodwin. Or unknowingly in that airspace.
    Mrs. Napolitano. Because you have an area where you have 
beaches and people decide to fly them, well, for recreation 
uses, and they fly by the ports.
    Mr. Goodwin. Absolutely. Absolutely. So it creates a 
complicated airspace. And that is where I think companies like 
AirMap and counter-UAS companies can provide a combined picture 
of the airspace to help start to solve some of those problems.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. LoBiondo. Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman. And this is to the 
panel.
    The FAA estimates that the hobbyists' UAS fleet will be 
more than triple the size in the next 4 years. On the 
commercial side, there will be a tenfold increase. You know, 
this is becoming a multibillion-dollar industry that will only 
grow in the future.
    You know, I represent an area that was once a thriving 
industrial district. I would like to ask what does this mean 
for American manufacturing? I know DJI, the Chinese company, is 
one of the biggest manufacturers of drones. Does anyone on the 
panel see where we can move forward in the United States in 
this effort?
    Mr. Wynne. Yes, sir. That is a great question. We have been 
forecasting a lot of economic activity, not only in the 
industry itself, but also value added to companies such as 
Southern Company, et cetera, for their business models. So I 
think it is very, very good for the economy. You know, our 
estimates, which are in my testimony, are as we integrate into 
the airspace, more and more value accrues.
    So there is--we have a shortage of pilots in this country 
for manned aircraft, and a growing number of unmanned pilots 
for the commercial sector. Those unmanned pilots increasingly, 
as we get to automatic airspace authorizations--and automation 
is a word I have been trying to get out here during this panel, 
and I haven't gotten to it yet, but automation is really, 
really key. And more and more of that automation will enable 
scale. More people will make a living doing this, whether it be 
adding value to particular industries or, you know, repairing 
drones and such nature.
    Mr. Payne. OK.
    Sir?
    Mr. Goodwin. So I think one of the themes that you have 
heard is not just scale, but also the particular applications 
that we have heard, say, that Southern Company want to pursue. 
When we have high volumes of particular applications, it is 
going to create a much more rich ecosystem, a larger pie that 
other manufacturers can participate in.
    And that is where, I think, we are going to see some 
greater competition and greater opportunity for domestic 
industries when we see the airspace get unlocked to a whole 
variety of use cases, where building to a particular use case 
might give them a competitive advantage.
    Mr. Payne. And so, also as this grows--as you were saying, 
Mr. Wynne--there would be opportunity for a larger market of 
pilots for these in industry, correct?
    Mr. Wynne. Absolutely. And we have been--we stood up our 
Remote Pilots Council earlier this year. Training is starting 
to come online. Trainers are starting to transition over to the 
unmanned space from the manned space, or to expand into that 
space.
    So there is a lot of opportunity here, and I come back to 
we have a pilot shortage. This is a lower barrier to entry for 
pilots than, you know--and a way to get people interested in 
aviation, whether it be actually flying drones, designing 
drones, designing the software, designing the middleware that 
goes into corporate and enterprise systems, all the way to the 
repair work that is going to be required.
    Mr. Payne. Thank you, thank you.
    Mr. Ball?
    Mr. Ball. Well, I would just like to say, too, I think, as 
the industry expands and grows, it provides a great 
opportunity, too, for the men and women in the military who 
have learned how to fly unmanned aircraft there. This becomes a 
great job opportunity for them. And in the utility industry we 
have been very focused on really reaching out to veterans and 
those folks who are coming out of the military. So I think 
there is a win-win for just a whole lot of sectors here.
    Mr. Payne. Mr. Alonso?
    Dr. Alonso. Yes, I think buried in your question is how we 
nurture the development of industries that utilize drones, 
develop drones, produce drones here in the U.S. And I think 
putting together--the best thing you can do is put together the 
infrastructure to enable large-scalability. So many hundreds of 
thousands of drones flying simultaneously, such that these 
business cases can actually be built.
    Mr. Payne. Well, thank you. You answered my second 
question, so I will yield back.
    Mr. LoBiondo. OK. I would like to thank our panel, thank 
you for your expertise, thank you for willingness to work with 
us. We look forward to continuing the dialogue and continuing 
to try to find ways to move this forward so that we can best 
optimize the opportunities, so to speak. And this first panel, 
you are dismissed. Thank you.
    [Pause.]
    Mr. LoBiondo. Mr. Elwell, are you ready? Thanks.
    We are--we will now move to the second panel with Mr. 
Daniel Elwell, Deputy Administrator of the FAA.
    Mr. Elwell, you are recognized for a statement.

 TESTIMONY OF DANIEL K. ELWELL, DEPUTY ADMINISTRATOR, FEDERAL 
    AVIATION ADMINISTRATION, ACCOMPANIED BY EARL LAWRENCE, 
DIRECTOR, UNMANNED AIRCRAFT SYSTEMS INTEGRATION OFFICE, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Elwell. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee, thank you for the opportunity to 
share what the FAA is doing to safely integrate unmanned 
aircraft technology----
    Mr. LoBiondo. Excuse me. Could you pull the mic a little 
closer, please?
    Mr. Elwell. Absolutely. Thank you for the opportunity to 
share what the FAA is doing to safely integrate unmanned 
aircraft technology into our Nation's airspace. And thank you, 
Chairman LoBiondo, for your years of public service. Your 
unfailing support of the FAA, and the work performed at the 
technical center has been critical to the advancement of U.S. 
aviation, and we owe you a great debt of gratitude.
    Accompanying me today is Earl Lawrence, the Executive 
Director of the FAA's UAS Integration Office. Drones are the 
fastest growing field in aviation. What was once little more 
than a novelty is now used for commercial operations, public 
safety, law enforcement, and emergency response. There are 
95,000 commercial drones operating in the United States going 
places that would otherwise be dangerous for people or other 
vehicles.
    The influx of new casual drone users continues to escalate, 
even beyond our most aggressive projections. It is estimated 
that the full integration of drones could reach a national 
economic benefit of $82 billion and 100,000 jobs within the 
decade.
    Within this context, the need for the United States to 
safely and fully integrate this technology into America's 
National Airspace System must be a national priority, which is 
why we are here.
    Led by Secretary Chao, the Department of Transportation has 
developed an ambitious vision. The FAA, in close coordination 
with organizations across the U.S. Government, intends to fully 
integrate unmanned aircraft into the National Airspace System, 
with drones operating safely and seamlessly with manned 
aircraft. They will occupy the same airspace and use many of 
the same air traffic management systems and procedures.
    Most countries seek only to accommodate drones, relying 
largely on operational segregation to maintain systemic safety. 
The vision of the United States is bigger and better. We seek 
to integrate, not segregate. We have made significant progress 
since our last appearance before this committee.
    In August 2016 we implemented a rule to govern small drones 
called part 107. It provides a working foundation for UAS 
integration, while still providing flexibility to allow the FAA 
to keep pace with technological advances. Since then, the FAA 
has issued 70,000 remote pilot certificates, 1,100 operational 
waivers, and over 10,000 authorizations for controlled airspace 
operations.
    We agree with Congress. The challenges remain. The FAA's 
2016 extension pointed to physical security, cybersecurity, 
privacy, and enforcement. And recognizing these challenges, the 
President directed us to launch a UAS Integration Pilot Program 
last month. This program allows us to leverage the experience 
of our stakeholders, working in partnership with State, local, 
and Tribal governments.
    This program will likely evaluate concepts like night 
operations, flights over people, flights beyond the pilot's 
visual line of sight, package delivery, detect and avoid 
technologies, and data links between pilot and aircraft. It 
will identify ways to balance local and national interests, 
improve communications with State, local, and Tribal 
jurisdictions, and accelerate the approval of operations that 
now require special authorizations.
    Industry and stakeholder engagement remains the backbone 
for integration. Our UAS industry partners have demonstrated 
extended and beyond-line-of-sight operations to support 
upcoming rulemaking. We also chartered a Drone Advisory 
Committee to help prioritize integration activities. 
Furthermore, we formed the Unmanned Aircraft Safety Team with 
industry to identify risks and develop mitigation strategies.
    Now, there is still much to do. Congress can support these 
efforts by ensuring that all UAS operators abide by the same 
requirements and certification standards that we apply to all 
aircraft that operate in the airspace. To that end, remote 
identification and tracking will be a key component to full 
integration, such as operations beyond visual line of sight and 
operations over people.
    We deeply appreciate the National Defense Authorization Act 
that Congress passed 2 weeks ago that reinstates the 
registration rules for all small, unmanned aircraft.
    All of us involved in integrating unmanned aircraft into 
our Nation's airspace are helping write a new chapter in 
aviation history. I believe we will recognize the full economic 
promise and technological advances unmanned aircraft represent.
    Thank you, and I look forward to your questions.
    Mr. LoBiondo. Thank you for your statement.
    So I was wondering if you could share with us your vision 
or priorities for the top several steps to be taken for 
integration of UAS into domestic airspace. And for me, very 
importantly, what additional role can be played at the tech 
center utilizing their expertise and their ability to go, I 
think, way beyond what they have been asked to do already?
    Mr. Elwell. Mr. Chairman, I agree that the tech center is 
going to be vitally important to the efforts that we have going 
forward. They have already contributed to much of the work that 
we have done in section 2206 with detection at airports. They 
have interacted with the COEs [Centers of Excellence], and we 
have gotten a lot of good work and data and analysis from the 
tech center.
    The key to this endeavor is that collaboration has been the 
number-one most important thing, because this is an emerging 
industry. So we need, as you have heard, phenomenal brains and 
experts on the industry side. We have to coordinate and 
collaborate with local communities and municipalities.
    And, of course, one of the bigger challenges, frankly, is 
to coordinate our activities and our incremental approach to 
regulating this emerging industry with our Government partners. 
And there are quite a few interests across Government in this 
endeavor.
    So the idea is to do it incrementally. The idea is to use a 
soft touch where we can use a soft touch, but a firmer touch 
where it is needed. And we are currently in the process of 
finding out where that line is, and how to make that 
demarcation.
    Mr. LoBiondo. Thank you. And I would ask you to continue to 
look at better utilization of the expertise that we have at our 
fingertips at the tech center, which, as I think you know, I 
believe have an ability to go beyond where they have gone, and 
would welcome the challenge of working closer on this.
    Mr. Shuster. Would you yield me the rest of your time?
    Mr. LoBiondo. Sure.
    Mr. Shuster. Because I have just a quick question. I think 
I have previewed what I was going to ask. Would you yield?
    Mr. LoBiondo. I would think about it, yes. Yes.
    Mr. Shuster. That is what happens when guys retire. They 
don't give a damn anymore about who their--the gentleman 
yields?
    Mr. LoBiondo. Yes.
    Mr. Shuster. Thank you very much. The question, as I--I 
questioned the last panel about remote identification. What is 
the--why can't we get that rule in place? Because it seems to 
me to be the simplest thing to do, to be able to start to be 
able to monitor safety, security, law enforcement, and those 
things. So could you tell me what seems to be that--the holdup?
    Mr. Elwell. Of course the whole issue of ID and tracking is 
a--performance-based. There isn't--we are not looking to 
identify a specific technology. We are looking for industry's 
input on what is available, and then what is available, will it 
scratch the itch, will it get done what we need to have done in 
controlled airspace?
    I don't know the technical, scientific specifics of it, but 
my colleague, Earl Lawrence, he was the designated Federal 
officer for the ID and tracking ARC, and I am sure he can----
    Mr. Shuster. Sure.
    Mr. Elwell [continuing]. Give you more detail, sir.
    Mr. Lawrence. So thank you very much----
    Mr. Shuster. Microphone.
    Mr. Lawrence. Thank you very much. And to build on Mr. 
Elwell's comments, I wanted to highlight the----
    Mr. Shuster. Can you pull that mic a little closer to you?
    Mr. Lawrence. Yes, sir.
    Mr. Shuster. You have got to pull the whole box.
    Mr. Lawrence. Pull the whole box. There we go.
    Mr. Shuster. There you go.
    Mr. Lawrence. A little better. Thank you very much.
    And to build on Mr. Elwell's comments, I wanted to 
highlight the Aviation Rulemaking Committee that we did host 
this summer. And I think it was a matter of priorities, of 
which thing do we tackle first. And now that ID is at the top 
of our priority list, having the collaboration and the 
involvement of our partners, both public and--particularly 
public safety was a great benefit.
    And what we were looking for them to do is, one, identify 
what the wants and needs were at the local level, what do our 
public safety officers need in the field to assist them. We 
understand what we need from an air traffic standpoint, but we 
also needed to have a good understanding of all the various 
technologies that are available to us.
    As was highlighted in the panel previously, the technology 
is evolving so quickly, we wanted their assistance and their 
knowledge so that we were not identifying one particular 
solution, but getting their expertise and knowledge on how we 
could develop a performance-based standard. And now that we 
have their report, we are moving forward with--we will be 
moving forward with our rulemaking activity.
    Mr. Shuster. So we will see something in short order, then? 
A matter of months?
    Mr. Lawrence. Rulemaking is a very deliberative process----
    Mr. Shuster. I know.
    Mr. Lawrence [continuing]. Will take time to----
    Mr. Shuster. And that seems to be sometimes the problem. So 
I will end it there, my time has expired. I don't want to cut 
into Mr. Larsen's time.
    But I would say, you know, we have been dealing with the 
issue of distracted drivers. And the industry is coming 
forward, saying if you put this rule in place, it is not going 
to matter 6 months from now or 1 year from now, so why don't 
you work closely with the industry and, as our panel before 
said, put the rule in place, deploy the technology, deploy the 
rule, and then let's review it every 6 months, every year, to 
tweak it, to change it to the technology.
    So again, I would encourage you to work as fast as you can 
on this, and it is something I am very interested in. So I 
would like to keep in touch with you as you move forward. Thank 
you very much.
    Mr. Woodall [presiding]. The chairman yields back.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Elwell, yesterday was the deadline for the State, 
local, and Tribal governments to register their interests in 
participating in the Integration Pilot Programs, I understand. 
How many notices of intent did FAA receive?
    Mr. Elwell. I don't know the exact number, sir. But it is 
hundreds. It has been a--we have been very happy with the 
response.
    Mr. Larsen. At some point would the list of applicants be 
made public? How are you approaching that?
    Mr. Elwell. So I am not sure. Because it is an acquisition 
process that ends up with an MOU [memorandum of understanding] 
with the participants, I am not quite sure how much of the 
information can be made public. But we will get back to you on 
that.
    Mr. Larsen. Can you do that?
    Mr. Elwell. Yes, sir.
    Mr. Larsen. Yes, thanks. Earlier this year it was reported 
the Drone Advisory Committee had been divided with regards to 
determining proper roles of different levels of government and 
regulating UAS operations. What is the current status of the 
DAC's work? Is it--did you tell them to go back to the drawing 
board? Did you say thank you very much? Did--where are we at 
with that?
    Mr. Elwell. So I think you are referencing task group 1, 
the task group that was----
    Mr. Larsen. Yes.
    Mr. Elwell [continuing]. Charged with that question. And 
that was before my time.
    In looking at it as I took over, I felt it was quite a bit 
to ask of that committee, quite frankly. And they briefed out 
at our last meeting in Seattle, and what we informed them is 
that, with the advent of the UAS Integration Pilot Program, we 
are going to retask that group to--as Dr. Alonso suggested, and 
I agree wholeheartedly, is that we need to retask task group 1 
to be more narrow and more specific on the data we need to 
collect and the data we maybe don't need to collect, and how we 
can use the data, going forward. And that is data across 
everything that we are going to do with the IPP.
    Mr. Larsen. Yes. Getting back to Dr. Alonso's answer to my 
question on data sharing, do you have--we have any limitations 
on sharing data from different States, different interest 
groups as we move forward on the UAS Integration Pilot Program?
    Mr. Elwell. I think that the--our only limitation is what 
the participants are willing to provide.
    Mr. Larsen. OK.
    Mr. Elwell. And, of course, our hope is that it will be 
much like we have done with legacy aviation and CAST 
[Commercial Aviation Safety Team], ASIAS, is to get agreements 
with all providers so that, as Dr. Alonso said, we have a 
constant flow of data and information that helps us understand 
the technology, so we can better regulate it.
    Mr. Larsen. Yes. I just know that this is one of the 
hurdles we had when we set up the six or so test sites in the 
2012 bill, I think, or whenever we last did it. But that one of 
the limitations that resulted in the test sites not being fully 
utilized was the issue of proprietary information and how it is 
being shared.
    So you know, if that hurdle still exists, we are still 
going to have the same problem. If there is a way to reach that 
hurdle, get over that hurdle, then we would actually--if you 
find a solution, let us know on that.
    Mr. Elwell. Thank you. I agree, it is a hurdle, and we do 
need to get beyond it.
    Mr. Larsen. Earlier this year the administration--so they 
were--they have a two-for-one Executive order on eliminating 
regulations before adding regulations. As you are moving 
through this particular exercise and UAS, are you running into 
any of these two-for-one problems?
    Mr. Elwell. No. What we are trying to do is have a 
discussion, intergovernmentally, how we are going to treat 
emerging technologies because, of course, there is not a lot of 
regulation in existence. So within the confines of UAS, or 
another commercial space, for instance, where do you--where 
would you do the two-for-one? Or, you know, do we want to do 
two-for-one for something that could be so economically 
beneficial to the country?
    Mr. Larsen. Yes, great. That is all I have.
    Mr. Lawrence, do you have anything you wanted to add?
    Mr. Lawrence. No, sir.
    Mr. Larsen. Great. Thank you very much. Oh, yes?
    Mr. Elwell. I would add we do have a DOT regulatory task 
force, which is looking at this very issue, and meets 
regularly.
    Mr. Larsen. OK, great, thank you.
    Mr. Woodall. The gentleman yields back. The gentleman from 
California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. And my apologies to 
the committee and panelists for my not being able to be present 
earlier. We had a Natural Resources Committee hearing also at 
the same time on NEPA and possible reforms to that, which kind 
of dovetails with part of my conversations on the unmanned 
aircraft, drones, et cetera.
    My district in the Western States have a lot of forestry, 
and a lot of remote areas and so the unmanned aircraft, the 
drones, would be very, very useful for a lot of aspects for 
inspection of infrastructure.
    I am also working on a bill, bipartisan bill with Mr. 
Schrader from Oregon, on easing up the process to remove 
hazardous trees that would be around power lines on Federal 
lands. So that should be pretty obvious. You got a dying tree 
or a hazardous tree that could fall against a power line, you 
get two bad things, blackouts to the city area that--where the 
line is generally going to, and blackened skies from the forest 
fires is probably going to happen in the immediate area.
    So we believe that, especially given some of the rugged 
terrain you are dealing with, where transmission lines are 
going many miles across forested and other, you know, remote 
areas, that this is a very important tool for the inspection of 
those, very cost effective, and environmentally correct, and 
all that.
    So with what we are looking at, does--Mr. Elwell, do you 
see that--well, just a brief answer--is that a pretty important 
aspect of what you are trying to promote in your policy, of 
course?
    Mr. Elwell. Absolutely.
    Mr. LaMalfa. OK. And then, what we are also seeing is that 
everybody wants to jump in on the regulation of these aircraft. 
So--and I am a little torn on this, because, of course, I would 
like to have local jurisdictions have strong input, and the 
ability to have things tailored to what they need.
    I have--you know, the Oroville Dam is right in my backyard 
of my district, as well, so there was a great amount of 
interest in what was going on with the dam, with the broken 
spillway, in the several months' worth of infrastructure repair 
to that. And they have been very successful at that. But, you 
know, a lot of aircraft work needed to be done with 
helicopters. And so you just don't always want drones running 
around the middle of that or in, you know, forest fire areas or 
other emergency situations.
    So what is the balance, do you see, with local--you know, 
local jurisdictions, whether it is States or counties or cities 
having their own drone--and if this is a redundant question, my 
apologies for not being here earlier--but having their own 
jurisdictions they are setting up on that, their own rules, 
versus a--you know, the map of the U.S., the airspace doesn't 
really care about county lines, State lines, et cetera.
    What is the best course on that for the right type of 
regulation? And what can local input have on that to dovetail 
well with a countrywide regulation?
    Mr. Elwell. Well, sir, that is a great question. And that 
is what we started talking about earlier with the Drone 
Advisory Committee test group 1's efforts to look at that 
issue.
    But the UAS Integration Pilot Program that we started--and 
the early applications just ended--that is the nut we are 
trying to crack. We want to let local communities, States, 
Tribal authorities do time, use, and manner restrictions, 
present to us the time, use, and manner restrictions that they 
would like to impose, executing their application of their 
pilot project.
    And as long as it doesn't interfere with the FAA's 
responsibility to keep the navigable airspace safe, then we 
ought to be able to do it, and we ought to gather a lot of data 
and a lot of information going forward. I mean that is the 
whole purpose, really, of the pilot project, in addition to, of 
course, enabling this technology to grow.
    We need to find that sweet spot, I think was what somebody 
said about it in the first panel. We need to find that sweet 
spot.
    Mr. LaMalfa. It can't be easy with, you know, the type of 
uses, you know, I was speaking of in infrastructure and rural 
areas. But then you have a complete opposite, where there is 
movement to have packages delivered home to home in 
neighborhoods like that, which, I guess, would be pretty 
amazing. But also, you know, concerns, as well.
    Does that come down to privacy issues with delivering to 
the wrong neighbor? And what does that all feel like with, you 
know, the other stories you hear about privacy invasion by 
these things with cameras? How would you, in my remaining time, 
touch that side of it?
    Mr. Elwell. So that is an interesting concept that you are 
talking about, dense airspace versus rural airspace. And they 
each present unique problems. And the airspace you were talking 
about in your district is class G airspace. So it is 
uncontrolled.
    But as a result, we don't always know what aircraft are in 
G airspace in any given time. It might actually be easier to do 
certain drone testing in the complex airspace, because only 
aircraft that are identified and being tracked and monitored by 
air traffic control are in that airspace. So, in a way, it is 
almost easier to allow that and permit that and to get data 
from that scenario. But they each have their own unique 
challenges, and we are hoping that the applications for the 
pilot project--that we get plenty from both regimes so that we 
can gather data.
    Mr. LaMalfa. All right. Let us know how we can help.
    Thank you, Mr. Chairman.
    Mr. Woodall. The gentleman yields back. Mr. Lipinski?
    Mr. Lipinski. Thank you. I think everyone can agree that 
there are certain places that drones can't fly. So when we were 
doing the 2016 FAA extension, section 2209 envisioned a process 
by which operators of critical infrastructure facilities could 
seek approval to create no-fly zones for safety and security 
reasons.
    But the process, unfortunately, envisioned by section 2209 
remains unresolved. I know Mr. Davis had brought this up in 
the--during the first panel. And I have worked across the aisle 
with members of this committee, including Representative 
Sanford, to improve the language and create a system that works 
for the FAA, for UAS operators, and for critical infrastructure 
stakeholders.
    It doesn't require facilities to apply for a designation, 
and it doesn't ask them to disclose any information about the 
facility that would compromise security. All it would do is 
make public the geographic location and boundaries of a 
critical infrastructure airspace designation.
    I think it is only fair that stakeholders have the 
opportunity to comment on possible changes to the airspace, and 
will only work if these designations reside in a central 
repository, so that operators know where to look to find out 
where they can and can't fly.
    So, Mr. Elwell, what role, if any, does the FAA see for 
section 2209 authorities under the new UAS integration, that 
pilot program?
    Mr. Elwell. So section 2209, we have been working 
diligently on section 2209 within the constructs of our own 
authority, authority that we have today in 997, I think it is. 
And, as a result, mostly working with DoD, we have over 900 of 
these sensitive facilities that we have restricted drone use--
to your point, they have created these spaces where drones 
can't go.
    We do have some limitations on our authority to draw those 
lines. We have a couple of security locations that we have 
collaborated with Department of the Interior--right? I am going 
to let Earl take over the details on this, but we are conscious 
of it, and we are with you. We want to have a database of these 
places that we don't--we want to have a sort of no-drone 
activity, and we are working on it.
    Earl?
    Mr. Lawrence. Yes. So to build a little bit more on Mr. 
Elwell's comments, we have been working with the Department of 
Energy, the Department of Defense, and the Department of the 
Interior to designate additional areas as restricted areas for 
drone use at low altitude.
    In addition to that, we have been working with DHS and 
meeting with their stakeholder groups to get the feedback from 
their infrastructure stakeholder folks that they have put 
together after 9/11 to understand what their needs are, and how 
we might categorize what facilities would need protection of 
these particular drone--no-drone zones.
    One of the things that we are looking at is education, as 
well. Not only education of the users, and asking people to 
stay away from these facilities, but it is also a matter of 
education that, in many cases, most of these facilities are 
already in restricted airspace, where these operations are not 
supposed to be occurring as they are today.
    So we are looking at their--other opportunities, such as 
our ID and tracking methods, so that we can identify the people 
who are already violating these, and then we can--to have 
additional counseling and education based on that.
    Mr. Lipinski. Because this is very important that we do 
move forward on this, because I receive a lot of comments about 
the lack of clarity, and we need to move forward on this.
    In the remaining time I have, I just want to throw this 
question out there quickly. With the UAS Integration Pilot 
Program, the issue of enforcement, how is that going to work, 
is there going to be local enforcement? It really lies with--
enforcement really lies--the authority lies with the FAA. How 
is that possibly going to work?
    So Mr. Elwell?
    Mr. Elwell. So, as I was talking about earlier, finding 
that balance--and as we go forward in the pilot project, and 
they get started, you know, we need to balance the needs of the 
localities with our responsibility to operate in--safely and 
manage the navigable airspace.
    The pilot program is going to provide an opportunity for us 
to work with the local jurisdictions to understand their needs 
in managing their areas of responsibility. And of course, 
public safety, privacy, trespass, you know, those kinds of 
things within the low-level airspace that the applicant wants 
to use, and we will work with those communities on setting the 
time, place, and manner restrictions to meet their needs, and 
not disrupt the safe and efficient use of the airspace.
    And those restrictions that would be in the pilot program 
enacted by the local government by legislation or regulation 
would be monitored and enforced locally, and FAA would just 
continue to enforce any Federal law.
    Mr. Lipinski. I think this is going to be--as you alluded 
to--difficult to do. So it is going to be something important 
that this committee keep oversight over that.
    Thank you, I will yield back.
    Mr. Woodall. The gentleman yields back. Mrs. Napolitano?
    Mrs. Napolitano. Mr. Elwell, one of the questions I had of 
the prior panel dealt with FAA. Were there any restrictions for 
local entities to provide ordinances prohibiting the flying of 
drones in that space?
    Mr. Elwell. So as we have been discussing----
    Mrs. Napolitano. I can't hear you, sir.
    Mr. Elwell. As we----
    Mrs. Napolitano. Just move it up, closer.
    Mr. Elwell. OK, sorry. As we have been discussing, the 
whole intent of the pilot project is to establish those lines 
of community involvement in their time, use, and manner 
restrictions that make sense for localities, many of which they 
have today, and they use today.
    You know, the--we are in charge of the navigable airspace, 
so we are in charge of aircraft and taking off and landing. 
And, of course, as Administrator Huerta has said many times, 
what drones in effect do is make every rooftop, every backyard, 
you know, every corner, a potential airport, a potential 
takeoff and landing spot.
    So what we are going to do is we are going to work out 
where the local interests and the FAA's navigable airspace 
interests come together, and----
    Mrs. Napolitano. Well, excuse me, but in southern 
California that is going to be very hard, because you have 
airports right in the middle of communities. And as I 
explained, in the ports there is beaches that are adjacent to 
the water ports. And so it is going to be hard to determine 
exactly where the line can be drawn.
    Mr. Elwell. Right. Yes, and as I said, in the pilot project 
we are hoping and looking for communities to present to us 
where local----
    Mrs. Napolitano. Have you asked them yet?
    Mr. Elwell. Yes. That is the--it is in the SIR [Screening 
Information Request] and it is online, and--all of the 
requirements of the pilot project and what we are asking.
    Mrs. Napolitano. OK, sir. The FAA was prepared to propose 
new regulations for unmanned aircraft operations over people in 
January, but pulled back at the last minute due to national 
security concerns. Since then there has been an informal hold 
on all UAS rulemakings. In the meantime, other countries are 
moving aggressively and ambitiously towards the regulations to 
attract investment in the technology.
    Have the law enforcements and national security communities 
communicated to FAA or to the industry or--what will it take 
for the agency to lift the hold?
    Mr. Elwell. So we are in constant communication with our 
Government colleagues in the national security area.
    In fact, I think, Earl, we had a number of representatives 
from law enforcement on the ID ARC, discussing exactly----
    Mrs. Napolitano. Federal and local?
    Mr. Elwell. Federal, and we had local representation 
talking about what they would need for that comfort level that 
they didn't have when we were getting ready to do the over-
people rule last year.
    So yes, we are in consultation, we are finding out what we 
need to do to give them comfort in----
    Mrs. Napolitano. And how long will it take to process 
that--to go into rulemaking?
    Mr. Elwell. That is a hard prediction to make, because of 
the intergovernmental review process. But our hope is to get it 
done with--efficiently and as quickly as possible.
    Mrs. Napolitano. OK. The rulemaking on small UAS has made 
tremendous strides toward the safe integration of commercial 
drones into the national airspace. However, commercial drones 
cannot operate beyond the operator's visual line of sight or 
over people, unless permitted by FAA, like commercial delivery.
    You have issued more than 1,000 waivers. Can you please 
explain what the criteria of FAA is?
    Mr. Elwell. So that question is--the man who has done 1,000 
waivers----
    Mrs. Napolitano. All yours.
    Mr. Elwell [continuing]. To best answer that question, 
Earl.
    Mr. Lawrence. All right. Thank you, Mr. Elwell.
    Most of the criteria that we outline and the waivers that--
we try to be performance-based. And when we issued the final 
rule for part 107, the small UAS rule, we included in its 
preamble information of what were the safety issues that an 
individual would have to address when they applied for a 
waiver.
    When we received waiver applications, we look for that 
information, because they need to address the safety of the 
operation that they are conducting. And obviously, every 
operation is different. An operation rural would have a 
different set of safety risks versus in a city.
    In addition, we work very closely and collaboratively with 
our industry partners. I have personally conducted multiple 
webinars with AUVSI and educating applicants of this is the 
type of information that they should be bringing forward.
    We have updated our website where we provide instruction 
right on our website of here is the information that we need in 
order to obtain these waivers.
    Again, this is a new environment. We are learning, as well 
as the operators. So we don't have the answers to everything 
for every circumstance. And, because of that, it is a bit of a 
deliberative process, as we work with the applicants to advance 
their operations.
    I am happy to say we--you know, night operations have 
become almost commonplace, because it was clearly understood 
how to comply with that. We now have CNN operating over people, 
and they have shown how they could safely operate an aircraft 
over people. And we do have some beyond-line-of-sight 
operations with our partners, as well.
    Mrs. Napolitano. Well, with the indulgence of the chair, I 
want to ask one more question, and that regarding personnel 
that is equipped or ready or trained. Do you work with the 
universities to attract people who have an interest in the 
technology?
    Mr. Elwell. And the STEM program, of course, has national 
interests way beyond DOT and FAA. But Secretary Chao just 
announced a few weeks ago a program called Forces to Flyers, 
where we are going to focus on working with educational 
entities to bring veterans who are coming off their service to 
our country, and getting them into----
    Mrs. Napolitano. Well, that is for veterans. I am talking 
about students who understand the technology and can help FAA 
upgrade their knowledge.
    Mr. Elwell. We--and I don't know, Earl, if we have an 
active recruitment process in that area.
    Mr. Lawrence. So I will just build a little bit on what Mr. 
Elwell said. Per--under the direction of this committee we have 
our Center of Excellence. And part of the Center of Excellence, 
not only is it partnering with the universities, it has also 
included a STEM program for education.
    Mrs. Napolitano. But is it directly----
    Mr. Lawrence. And we are----
    Mrs. Napolitano [continuing]. Addressing FAA and drones?
    Mr. Lawrence. Yes, specifically FAA and drones. It is the 
drone--it is the Unmanned Aircraft Systems Center of Excellence 
partnering with the universities who are doing a lot of our 
basic research. And part of that legislation included science--
you know, math and technology learning, and we do look for 
them--I like hiring from them as much as I can----
    Mrs. Napolitano. I would like to know what the needs of the 
universities are, so we can share them with the rest of the 
committee.
    Thank you, Mr. Chair.
    Mr. Lawrence. OK.
    Mr. Woodall. The gentlelady yields back. With that 
reference to--from Mr. Lawrence of the direction of a 
committee, I will pick up--from the committee, I will pick up 
right there. I want to talk about section 2210 for a moment.
    We have talked a lot about pilot projects and how quickly 
folks are getting ramped up on the President's request we move 
forward there. I want to talk about the committee's request 
from July of 2016.
    We heard testimony from the previous panel, from the 
Southern Company and a consortium of utility providers, to say 
they had applied both for part 107 waiver more than 12 months 
ago, as well as they are waiting on a guy that is from section 
2210, passed almost 18 months ago. You all have limited 
resources with which to do your work, you are having to work 
for the exact same goal for this consortium under--on two 
separate tracks right now.
    I would be interested to know, number one, which track do 
you expect to yield fruit first and, number two, what we can 
do, as your partner here, partner in innovation, to keep you 
from having to go through the same process twice, as this ever-
changing dynamic continues to grow in speed.
    Mr. Elwell?
    Mr. Elwell. Thank you, sir. First of all, we absolutely 
appreciate the diligence of this committee and the work that 
you have done to help us in our efforts to assimilate this 
technology. And I will pass section 2210 on to Earl.
    I will say, however--and I need to follow up with Billy and 
his--I think I am aware of the application he is talking about. 
And if it is the one I think he is talking about, we actually 
denied that request about 4 months after it was made. So we 
will follow up with him, and we will make sure that we are all 
on the same page.
    Earl, section 2210?
    Mr. Lawrence. So thank you. And just to build on that, on 
2210, I would like to--I am happy to say we have two companies 
we are partnering with now on 2210. Specifically, they are Xcel 
Energy--so it is a power line company that we have what we call 
a safety partnership with, and we have outlined a program with 
them to get them to be online as site operations, as well as 
BNSF has recently applied under that legislation, as well.
    And I am happy to say that we are working, and more 
recently we received a request from the Southern Company to do 
a similar thing as those other two companies, and we have just 
started our discussions with them to add them into that 
program, as well.
    So again, we don't have it all laid out, because it is new, 
and we are also understanding what section 2210 offers us and 
what does that give us, as far as additional authorities. But 
it does prioritize it. We take it very seriously. And 
infrastructure patrol is something very important, and we know 
you--it is your--top on your list.
    Mr. Woodall. Help me to understand what that means, Mr. 
Lawrence. Two partnership companies, eighteen months' worth of 
legislation, I know if I go and look at a part 107 waiver the 
FAA will say, ``We are going to try to get you an answer back 
in 90 days.'' And to Mr. Elwell's point, no is actually an 
answer. And so that counts in that timeframe.
    I make application under section 2210. I am also on a 90-
day clock? I am on a 120-day clock? What do I expect, as an 
applicant?
    Mr. Lawrence. So what we are doing with those companies was 
we actually sit down with representatives that--across the FAA, 
so we have our aircraft certification folks, we have our flight 
standards folks, we have our Air Traffic Organization, and we 
sit down with them, face to face, and we work out a schedule 
and say, OK, what do you want to do?
    They first tell us what their concept of operation--what 
aircraft are they using, what airspace are they going to be 
operating, and they lay all that information out for us, and we 
identify the rules that are already in existence that they can 
comply with, and the additional rules that we may need to do a 
waiver or an exemption to, identify those things, and then we 
go on and we do a joint schedule with them to identify what the 
time would be to achieve their objective, because, as we know, 
quite often they have to bring testing data, they have to bring 
design data and information to the discussion, as well.
    And, in some cases, we have to include the Air Force and 
other organizations because the airspace that they are 
operating in is joint use, and we need to bring in those other 
authorities to have this----
    Mr. Woodall. So if you were to ballpark that for me, that 
doesn't sound like 90 days. About the third collaborative 
agency you had in there--I went ahead and ticked this up to 
120, 180. What would you ballpark----
    Mr. Lawrence. Yes, sir. So we meet immediately with them. 
And then we let them identify to us what the timeline--help 
identify what the timeline would be.
    If you are asking how long does it take, it depends on 
their project. But we are there, physically meeting face to 
face, answering those questions at that point, not 6 months--we 
are not taking data and a letter and then coming back 6 months 
later. We are sitting down with them, answering those 
questions, and identifying what needs to be done in order to do 
that operation safely.
    Mr. Woodall. Thinking about that collaborative process, 
tell me about the Drone Advisory Committee, Mr. Elwell. What is 
it that the FAA sees as the best way to utilize the expertise 
on the DAC?
    Mr. Elwell. So I am still getting to know the committee. My 
first reaction is that one of the best things we are getting 
from the Drone Advisory Committee is the socialization of a 
inhomogeneous group of people. I mean you have got brilliant 
technocrats who don't know a thing about aviation. You have got 
folks that are used to doing technological iterations in days, 
talking to regulators who--we don't do change in days.
    So one of the best things about the DAC is the ability of 
those two communities to come together and--really, we are 
learning from them and they are learning from us. We are 
learning ways that we can think faster, we can work faster. You 
know, our performance-based, risk-based regulatory philosophy 
now is much closer to how they look and do things and move out.
    So that is just sort of the philosophical side that the DAC 
is benefitting us. But they are also providing some, you know, 
tremendous guidance. And we have people like Dr. Alonso on the 
DAC, and we have the heads of many of aviation's top trade 
associations. So it is a brain trust that is providing a great 
amount of information to us. So it is--they are very valuable.
    Mr. Woodall. I am glad to hear that very positive review of 
who we have there.
    What should we expect in terms of new taskings from the 
FAA, whether to RTCA or to DAC? What do you envision being 
requested of those folks, going forward?
    Mr. Elwell. As I said, we are developing a new tasking for 
task group 1 to align with the pilot project, so that we can 
get their expertise in helping us gather data and implement the 
project.
    We are waiting. In March, task group 3 is going to give us 
their recommendations on funding. Task group 2 gave us some 
interesting recommendations. In fact, the one I mentioned 
earlier about we want FAA--task group 2 says FAA should go 
after operations in class B airspace. That is that 
counterintuitive--really, that is the most dense airspace, but 
that makes sense, because it is the most rigidly controlled 
airspace that we have.
    So, going forward, it is hard to predict, because it is 
such a dynamic and changing technological environment. But we 
promise to keep you guys absolutely informed on our work, going 
forward.
    Mr. Woodall. When we are talking about funding, do you have 
the funding tools that you need, as we sit here today, to make 
that happen?
    Mr. Elwell. Yes, sir. Funding is not an issue.
    Mr. Woodall. Well, thank you both for being here, and thank 
you for what you are doing. As--when panel 1 suggests that we 
should revisit the regulatory environment every 180 days 
because things are moving so fast, clearly you have your work 
cut out for you in staying that nimble. I look forward to our 
next meeting, Mr. Elwell, where you tell me again about the 
folks you work with who expect change in 3 days, about how we, 
as regulators, are now catching up to them in that model.
    With that, this hearing stands adjourned.
    [Whereupon, at 12:56 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    				[all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
